<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The following testimonies were received by 
the Subcommittee on Transportation and Housing and Urban 
Development, and Related Agencies for inclusion in the record. 
The submitted materials relate to the fiscal year 2009 budget 
request.
    The subcommittee requested that public witnesses provide 
written testimony because, given the Senate schedule and the 
number of subcommittee hearings with Department witnesses, 
there was not enough time to schedule hearings for 
nondepartmental witnesses.]
          Prepared Statement of the City of San Marcos, Texas
                      san marcos municipal airport
    Madam Chairman and members of the subcommittee: On behalf of the 
city of San Marcos, Texas, I am pleased to submit this statement in 
support of our request for project funding for fiscal year 2009.
    The city of San Marcos requests Federal funding for the San Marcos 
Municipal Airport to accomplish improvements that are in the public 
interest. The improvements are described in the three specific project 
components listed below:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Northside Infrastructure Development....................      $2,021,250
New Terminal Building...................................       4,725,000
Fixed Base Operator (FBO) Facility......................       1,575,000
                                                         ---------------
      Total Request.....................................       8,321,250
------------------------------------------------------------------------

    The San Marcos Municipal Airport is a public general aviation 
classified as a reliever airport within the National Plan of Integrated 
Airport Systems. The airport is owned and operated by the city of San 
Marcos, Texas. It is located just east of Interstate Highway 35 on 
Texas Highway 21 approximately 30 miles south of Austin and 45 miles 
north of San Antonio in one of the fastest growing corridors in Texas.
    The airport is part of a closed military base; the remainder of the 
former Air Force Base is occupied by the United States Department of 
Labor's Gary Job Corps Center. When the base was closed and divided in 
1966, the Job Corps retained the portion of the property with the 
buildings and other amenities, while the city of San Marcos was given 
the aeronautical facilities consisting of runways, taxiways, and the 
parking apron.
    This arrangement has resulted in a ``bare bones'' airfield that 
lacks the support structure to sustain an economically viable modern 
airport. We have adequate aeronautical facilities and real estate, but 
few other vital facilities. In addition, current legislation provides 
for airport capital improvement funding assistance through the Federal 
Aviation Administration for aviation infrastructure, but not for the 
type of improvements that this airport needs.
    The city of San Marcos requests assistance to transform the airport 
into a modern, self-sustaining enterprise benefiting not only the local 
community, but the region as well. After analysis and master planning, 
we have determined that the three project components herein described 
will produce the ``biggest bang for the buck.'' These components 
represent our highest priorities and most immediate needs, and they 
will be a highly visible indicator that the San Marcos Municipal 
Airport is on the move. We are firmly convinced that these improvements 
will initiate further development and attract private investment that 
will far surpass the amount that we are seeking in Federal support.
    The following program descriptions outline our three-part request:
North Side Infrastructure Development--$2,021,250
    The layout of the former Gary Air Force Base is such that all the 
buildings and developed area of the base are to the south of the 
airfield. When the base was divided between the Gary Job Corps Center 
and the San Marcos Municipal airport, the airport was given only a thin 
sliver of land on the south side to provide access and support the 
airfield. There is not enough room for all the support facilities such 
as hangars, maintenance shops, and terminal buildings that an active 
airport requires.
    However, on the north side of the airfield is real estate that has 
never been developed. One prime piece of this area consists of 
approximately 40 acres of very desirable airport land that fronts Texas 
Highway 21 and borders an existing taxiway that will become the main 
taxiway for the entire north side development. Except for the absence 
of infrastructure, it is the prime location on the airport. The area 
requires access roads, including a main airport entrance, drainage 
improvements, aircraft ramps and aprons, existing taxiway pavement 
reconstruction, and utilities. It also needs a seed project to 
stimulate private investors to move into the area.
    Our plan proposes to construct the infrastructure and then to build 
approximately 50 nested T-hangars in two or three city-owned buildings. 
Our planning estimate for the cost to implement this project is 
$2,021,250. San Marcos Airport received $1,575,000 in appropriations 
funding for fiscal year 2008, leaving $2,021,250 needed to complete the 
infrastructure project. We are also convinced that once this north side 
development ball starts to roll, the future of the new San Marcos 
Municipal Airport will shift from the current limited and constrained 
south side to the several hundred acres of prime undeveloped land 
available on the north side.
New Terminal Building--$4,725,000
    The commercial, economic, and public service hub of a modern 
airport is the public terminal building. The terminal building provides 
public amenities such as a waiting room or lounge, airport 
administration offices and public meeting rooms, restrooms, flight 
planning facilities and communications links to obtain flight planning 
information, commercial lease space for on-site businesses such as 
restaurants, retail shops, rental car facilities, and other aviation-
related commercial activities.
    An airport's facilities will be the first thing a business traveler 
will see, and it is those facilities which represent the city of San 
Marcos. These facilities are sorely lacking in our present airport 
configuration, and the existing terminal building is undersized to meet 
existing demand, much less provide room for growth. The planned 
terminal building planning concept is for a modern, state-of-the-art 
building of approximately 10,000 square feet first floor and total cost 
estimated at $4,725,000. This terminal building will be the seed 
project to stimulate private investors and other commercial and 
corporate business to move into the area. Lease payments and other 
airport fees would offset this investment; and the investment is 
calculated to be a profitable enterprise for the airport in the long 
term.
Fixed Base Operator (FBO) Facility--$1,575,000
    For general aviation operations, airport activity centers on the 
Fixed Base Operator (FBO). This facility is where the transient and 
airport-based pilots and aircraft operators buy fuel and obtain direct 
support for their flights. It is also a place where transient and 
airport-based pilots can arrange to have their aircraft serviced, 
repaired, and hangared overnight or longer when required.
    It is again opportune that the San Marcos Municipal Airport has an 
established FBO that is capable of accomplishing these vital services 
if a facility were available for them to lease. We propose that a 
modern, state-of-the-art FBO facility be constructed to meet the 
airport's present and future commercial requirements. The approximately 
30,000 square foot structure would be primarily hangar space with an 
attached business, repair shop, and office area. Cost is estimated at 
$1,575,000. Lease payments and other airport fees would offset this 
investment; and the investment is calculated to be a profitable 
enterprise for the airport in the long term.
    The 1,356 acre San Marcos Municipal Airport is a potential economic 
dynamo for this region of Central Texas. The three airport improvement 
components that we are proposing will result in an increase in activity 
and private investment. This is a good investment of public revenue 
that will result in more high-paying aviation jobs, an increased tax 
base, and more direct revenues in the form of airport fees and rents. 
Our airport will also better serve the aviation needs of the region and 
spur further growth, development, and prosperity for our citizens. 
These projects are grounded in sound public policy principles. They 
will result in excellent value for the American taxpayer and for the 
traveling public that will utilize the facilities.
Cost-Sharing
    The city of San Marcos will contribute real estate on the north 
side of the airport for the three components of the airport project. 
The value of the local municipal government in-kind share is estimated 
at $832,125. Additionally, our development code will require new 
developers to share the costs for infrastructure extensions (water 
lines, waste water lines, roadways, etc.) We estimate this cost share 
value to be approximately $1,500,000.
    The city of San Marcos sincerely appreciates your consideration of 
these requests for funding in the fiscal year 2009 cycle and 
respectfully requests your support.
                   loop 82 railroad overpass project
    On behalf of the city of San Marcos, Texas, I am pleased to submit 
this statement in support of our request for project funding for fiscal 
year 2009.
    The city of San Marcos requests an appropriation of $10 million 
from the Transportation, HUD & Related Agencies Subcommittee to 
complete the funding for a vitally needed $25 million railroad overpass 
on Aquarena Springs Drive (Loop 82), a major State highway in San 
Marcos, Texas.
Background
    San Marcos has 50,371 residents, plus an estimated 13,000 commuting 
students who are part of our 28,500 student campus at Texas State 
University, all within the city limits. The city is located in the 
heart of the Interstate 35 corridor halfway between Austin and San 
Antonio, Texas.
    Aquarena Springs Drive (Loop 82) is a major entryway into San 
Marcos and the primary access point for Texas State University from 
Interstate 35. In addition to traffic generated by commuters and 
residents, Aquarena Springs Drive carries heavy traffic from numerous 
university housing and large apartment complexes located along this 
busy thoroughfare. Aquarena Springs Drive averages an estimated 32,000 
vehicles per day.
    San Marcos has an elevated railroad crossing on only one State 
highway and 20 at-grade railroad crossings throughout the city. Union 
Pacific Railroad tracks completely bisect San Marcos, with most 
crossings located within 1 mile of downtown, including the Aquarena 
Springs Drive crossing. An average of 47 trains travel through San 
Marcos every 24 hours. The existing at-grade crossing on Aquarena 
Springs Drive results in increased risk for automobile/railroad 
conflicts and significant trip delay.
    In February 2005, a freight train transporting hazardous materials 
derailed in the center of San Marcos near a heavily populated 
neighborhood about 1.6 miles from Aquarena Springs Drive. While no one 
was injured and no hazardous materials were spilled, the incident 
raised the level of concern about the lack of safe passage at railroad 
crossings along major thoroughfares in San Marcos.
Cost Sharing
    The Loop 82 Aquarena Springs Drive overpass project has been 
approved by the Texas Department of Transportation (TXDOT) and Union 
Pacific Railroad, and preliminary design has begun. Approximately $15 
million in railroad safety funds have been allocated to this $25 
million project. As of October 2007, design was scheduled to be 
completed by April 2011, with construction to begin in August 2011.
    The city of San Marcos has received voter approval to allocate 
$932,800 in tax-supported general obligation bonds as our local share 
to pay for the realignment of local roadways associated with the 
railroad overpass. As noted, the Texas Department of Transportation has 
set aside $15 million in railroad safety funds for the bridge. However, 
the recent financial shortfalls at TXDOT have caused the State agency 
to halt all work on this important project.
Community Safety Issue
    The $10 million shortfall has effectively stopped a project that 
addresses a critical issue of health, safety and welfare in our 
community. Loop 82 was identified by the Texas Department of 
Transportation as the only other State highway on which a railroad 
overpass can be constructed in San Marcos. In December 2006, the city 
of San Marcos and TXDOT opened the first railroad overpass on Wonder 
World Drive (FM 3407) on the south end of San Marcos, a project that 
took us more than 25 years to achieve.
    Design, right-of-way acquisition and construction of a 4-lane 
railroad overpass on Aquarena Springs Drive (Loop 82) with associated 
frontage roads will improve railroad safety, traffic safety, mobility 
and air quality in San Marcos. We believe that it is a matter of safety 
and community health and welfare to build this overpass and create an 
unobstructed access to Texas State University and downtown San Marcos.
    The city of San Marcos sincerely appreciates your consideration of 
this request for funding in the fiscal year 2009 cycle and respectfully 
requests your support.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives
                          interest of the ime
    The IME is the safety and security association of the commercial 
explosives industry. Commercial explosives are transported and used in 
every State. Additionally, our products are distributed worldwide, 
while some explosives, like TNT, must be imported because they are not 
manufactured in the United States. The ability to transport and 
distribute these products safely and securely is critical to this 
industry.
                               background
    The production and distribution of hazardous materials is a 
trillion-dollar industry that employs millions of Americans. While 
these materials contribute to America's quality of life, unless handled 
properly, personal injury or death, property damage, and environmental 
consequences can result. The threat of intentional misuse of these 
materials also factors into public concern. To protect against these 
outcomes, the Secretary of Transportation (Secretary) is charged under 
the Hazardous Materials Transportation Act (HMTA) to ``provide adequate 
protection against the risks to life and property inherent in the 
transportation of hazardous materials in commerce by improving'' 
regulation and enforcement.\1\ The Secretary has delegated the HMTA 
authorities to various modal administrations, with primary regulatory 
authority resting in the Pipeline & Hazardous Materials Safety 
Administration's (PHMSA) Office of Hazardous Materials Safety (OHMS). 
How OHMS has handled and proposes to handle these responsibilities is 
the focus of this statement.
---------------------------------------------------------------------------
    \1\ 49 U.S.C. chapter 51.
---------------------------------------------------------------------------
                    fiscal year 2009 budget request
Staff and Program Resources
    We understand that this is an unusually tight budget year. While 
OHMS is level funded, it is technically adsorbing a $1.3 million cut 
from the adjusted fiscal year 2008 base. It is able to sustain those 
cuts because it has automated some activities, streamlined some 
regulatory processes, leveraged other agency resources, and made 
efforts to fully staff up to allowable FTE. At the same time, however, 
PHMSA leadership has charted an aggressive program of work for OHMS 
that is risk-based, compliance-oriented, and stakeholder-focused. We 
believe OHMS is operating at capacity. Any additional cuts would 
compromise the agency's role to ensure the reliability of commercial 
hazardous materials transportation.
    We are concerned that ``over one-third of [OHMS] employees will be 
eligible to retire within 5 years.'' \2\ Essential programmatic 
knowledge may be lost with turnover of this magnitude. We urge Congress 
to ensure that adequate transition plans are in place.
---------------------------------------------------------------------------
    \2\ Fiscal Year 2009 PHMSA Budget Submission, page 50.
---------------------------------------------------------------------------
Regulatory Backlog
    This year OHMS has designated four rulemakings as ``significant,'' 
the same number as last year. However, two from the old list were 
completed and two new ones have been opened.\3\ In addition to these 
four priority rulemakings, OHMS is assisting the Federal Railroad 
Administration with a priority rulemaking and working on 17 additional 
dockets. These rulemakings do not take into account rulemaking 
petitions, which OHMS has accepted but has not yet assigned to a 
specific rulemaking action. OHMS has pending 24 such rulemaking 
petitions.\4\ In addition, OHMS is in the 10th of a 10-year cycle to 
review the impact of its regulations on small entities pursuant to the 
Regulatory Flexibility Act (RFA).\5
\\---------------------------------------------------------------------------
    \3\ DOT Rulemaking List, Fall 2007. http://www.reginfo.gov/public/
do/eAgendaMain.
    \4\ http://dms.dot.gov/reports/PHMSA_report.cfin, February 13, 
2008.
    \5\ Public Law 96-354, section 610 as amended.
---------------------------------------------------------------------------
    Since the enactment of the 2005 HMTA amendments, OHMS' special 
permit workload has decreased because permits may now be issued for 
periods up to 4 years, rather than the previous 2 year limitation. 
Still, OHMS processes nearly 200 special permit requests annually--a 
commendable effort. However, this does not reveal how timely the 
special permit workload is handled. OHMS is under a statutory mandate 
to process special permits within 180 days. Yet last year, ``lack of 
staff resources given other priorities or volume of applications'' was 
the reason given 81 percent of the time that special permit 
applications were delayed. A helpful workload indicator may be the 
actual number of special permit requests received, the actual number 
processed, and of that number, the actual number processed within the 
statutory 180-day deadline set by Congress.
    One aspect of the hazmat regulatory workload that continues to 
present concern is the processing of petitions for preemption. This 
activity is managed by the PHMSA Office of Chief Counsel. Six petitions 
for preemption determinations are currently pending. There has been no 
change in the status of these petitions during the last year. Neither 
these, nor any prior petition for preemption, have been processed 
within the congressionally mandated 180-day turnaround.\6\ PHMSA's 
ability to swiftly deal with petitions for preemption is essential to 
the purpose Congress hoped to achieve in granting administrative 
preemption to DOT, namely that the preemption determination process 
would be an alternative to litigation.\7
\\---------------------------------------------------------------------------
    \6\ 49 U.S.C. 5125(d).
    \7\ In authorizing the preemption determination process, Congress 
found that ``the current inconsistency ruling process has failed to 
provide a satisfactory resolution of preemption issues, thus 
encouraging delay, litigation, and confusion.'' H. Rept. 101-444, part 
1, page 21.
---------------------------------------------------------------------------
Hazmat Registration and Fees
    We have appreciated the oversight the House and Senate 
Appropriations Committees have provided to ensure that fee collections 
have not been spent on activities above authorized amounts. The 2005 
amendments to the HMTA nearly doubled the fees to be collected in 
support of the Emergency Preparedness Grant Program (EPGP), ``train-
the-trainer'' grants for first responders, publication of the Emergency 
Response Guide, and, for the first time, grants to train hazmat 
employees. At the same time, the statute requires OHMS to adjust the 
amount of the fees charged to account for unexpended balances that 
accrue to the fund. In the past, OHMS failure to adjust fees due to 
over-collection resulted in litigation.\8\ OHMS finds itself again with 
a substantial $18 million over-collection. As a result, OHMS is not 
proposing to increase hazmat registration fees for the 2008-2009 
registration year to cover the increases authorized by the 2005 
amendments.\9\ But, we expect a rulemaking to increase fees in fiscal 
year 2009.
---------------------------------------------------------------------------
    \8\ Hazardous Materials Advisory Council, Inc. et al. v. Mineta, 
No. 02-01331, (D.D.C., filed July 1, 2002).
    \9\ The 2005 amendments were enacted too late to appropriate 
increases to the fiscal year 2006 EPGP. Fiscal year 2007 was funded on 
a continuing resolution. Fiscal year 2008.
---------------------------------------------------------------------------
    Our concern about over-collection of hazmat fees stems from the 
statutory provision that allows OHMS to transfer fees ``without further 
appropriation'' from the Hazardous Materials Emergency Preparedness 
Fund (HMEPF).\10\ It is important, therefore, that the subcommittee 
continue to scrutinize the amount of hazmat fees that can be 
transferred from the HMEPF and to cap transfers at levels the 
subcommittee believes will be appropriately spent.
---------------------------------------------------------------------------
    \10\ 49 U.S.C. 5116(i).
---------------------------------------------------------------------------
    OHMS is authorized to assess a separate fee to process registration 
submissions. Currently, that fee is $25 per registration. The fiscal 
year 2009 budget request cuts the amount needed to cover the costs of 
registration processing from $1.2 million to $765,000. OHMS has been 
able to reduce costs through system automation, bringing the 
registration program in-house, and by eliminating costly 24/7 emergency 
registration processing. We fully support the registration program 
whose purpose is to provide OHMS information on the community it 
regulates, and have no objection to paying fees for this function.
    Thirty percent of the $13.5 million fee increase provided by the 
2005 amendments is earmarked to train trainers of private sector hazmat 
employees or hazmat employees themselves.\11\ This program is of 
questionable benefit because the training provided is limited to that 
offered by non-profit hazmat employee organizations that are unlikely 
to be relied upon to provide the specific and specialized training each 
``hazmat employer'' is required by law to provide to address its own 
unique hazmat environment. Any potential hazmat employee who availed 
themselves of such training from a third-party non-profit training 
organization would still have to be trained in his employer's hazmat 
operations. The program amounts to double taxation for hazmat employee 
training. The real issue with private sector training is assessing the 
quality of the training that is available. Given the millions of 
dollars in fees industry is already paying to fund other aspects of the 
EPGP, this program cannot be justified. If fee revenue will be 
allocated for hazmat employee training, OHMS is proposing some creative 
options to make the program more palatable. First, OHMS is committed to 
competitively award the hazmat employee training grants, a good 
Government decision that should be supported.\12\ Second, OHMS is 
proposing to limit the hazmat employee grant program to $2 million. 
With this allotment, OHMS could still train 50,000 employees.\13\ 
Third, the agency is proposing to redirect $1.5 million of the 
remaining fees to fund its authority to establish grants and 
cooperative agreements.\14\ This initiative proposes to create a data 
repository of training materials developed using EPGP funds. Fourth, 
OHMS is proposing to develop training competency standards and 
instructor guidelines and to offer instructor certification as a way to 
improve the quality of training available to the hazardous materials 
community.\15
\\---------------------------------------------------------------------------
    \11\ 49 U.S.C. 5107(e) & 5128(c).
    \12\ Fiscal Year 2009 PHMSA Budget Submission, page 129.
    \13\ OHMS estimates that training will cost $40.00/employee. OHMS 
estimates that only 25,000 will be trained. However, 
2,000,00040=50,000. See fiscal year 2009 PHMSA Budget Submission, page 
52.
    \14\ 49 U.S.C. 5121(g). Fiscal year 2009 PHMSA Budget Submission, 
page 131. These grant funds are in addition and not to be confused with 
the $1.25 million OHMS receives from the Federal highway trust fund to 
support research projects identified by the National Academy of 
Sciences. See. Public Law 109-59, sec. 7131, and fiscal year 2009 PHMSA 
Budget Submission, page 43.
    \15\ Fiscal Year 2009 PHMSA Budget Submission, page 42.
---------------------------------------------------------------------------
Emergency Planning and Training Grants
    The purpose of the Emergency Preparedness Grants Program (EPGP) is 
to cover the ``unfunded'' Federal mandate that States develop emergency 
response plans and to contribute toward the training of emergency 
responders. Industry has contributed, through hazmat registration fees, 
nearly $199 million during the life of the grants program. More 
accountability is needed in the EPGP and more evidence of coordination 
among other similar Federal initiatives to ensure that all resources 
are used as efficiently and effectively as possible. Congress directed 
OHMS to submit annual reports to Congress on the allocation and uses of 
the grants, the identity of the ultimate recipients, a detailed 
accounting of all grant expenditures, as well as an evaluation of the 
efficacy of the programs carried out.\16\ No reports or information 
have been forthcoming. The subcommittee is best suited to insist on 
this level of oversight.
---------------------------------------------------------------------------
    \16\ 49 U.S.C. 5116(k).
---------------------------------------------------------------------------
    As an indication of congressional concern that the LEPC set-aside 
may not be the best use of the new $9 million fee increase in the EPGP, 
the 2005 HMTA amendments provide OHMS discretion to limit or deny new 
funding. Yet, OHMS has not exercised this discretionary authority, nor 
does it describe any sort of analysis that would justify ignoring this 
funding opportunity. OHMS should be asked to prioritize the needs and 
value of the planning and training portions of the EPGP to the safety 
and security of hazardous materials transportation. The subcommittee 
should use this information to redirect the new $9 million allocation 
up to the maximum extent allowed.
    While the law provides that OHMS can expend industry's hazmat 
registration fees for the EPGP ``without further appropriation,'' we 
would encourage the subcommittee to exercise its oversight to address 
programmatic issues and concerns before handing over a blank check. The 
subcommittee has established congressional precedent in this area, 
setting caps on the amount of the fees that may be expended for the 
EPGP.
Program Priorities
    OHMS lays out an aggressive array of priorities for the fiscal year 
2009 funding request. In particular, we are particularly pleased to see 
plans to charter a Hazardous Materials Technical Advisory Committee 
(HMTAC). The HMTAC would be modeled after successful advisory 
committees currently serving the Federal Motor Carrier Administration 
and the Federal Railroad Administration, with representation from the 
regulated community, State and local government and the public 
sector.\17\ Likewise, we support several training initiatives OHMS 
outlines to address the needs of the agency for a skilled workforce, to 
improve the competency of Federal and State hazmat investigators, and 
to promote professionalism throughout the regulated community.\18\ We 
are particularly enthused by OHMS' proposal to develop curriculum for 
the regulated community and to establish an exclusive authority to 
certify hazmat professionals.
---------------------------------------------------------------------------
    \17\ Fiscal Year 2009 PHMSA Budget Submission, page 47.
    \18\ Fiscal Year 2009 PHMSA Budget Submission, page 50.
---------------------------------------------------------------------------
    OHMS also proposes to establish a Integrity Management Program.\19\ 
This type of initiative is a hallmark of the pipeline regulatory 
program. However, we are approaching this initiative for the hazmat 
community with a degree of caution. The hazmat community is so diverse 
that relatively few entities have systemwide control of a hazmat 
shipment. Typically, a hazmat shipment will involve multiple offerors 
and carriers as a package transits from the manufacturer to the end 
user. OHMS has suggested that some form of regulatory relief will be 
the reward of those that employ a IMP approach. However, the one factor 
that underpins the undisputed success of the Federal regulatory program 
is the very uniformity of its requirements. It remains to be seen how 
IMP relief will translate into a regulatory environment dependent on 
uniformity to function safely and efficiently.
---------------------------------------------------------------------------
    \19\ Fiscal Year 2009 PHMSA Budget Submission, page 49.
---------------------------------------------------------------------------
                               conclusion
    The transport of hazardous materials is a multi-billion dollar 
industry that employs millions of Americans. This commerce has been 
accomplished with a remarkable degree of safety, in large part, because 
of the uniform regulatory framework authorized and demanded by the 
HMTA. Within the Federal Government, OHMS is the competent authority 
for matters concerning the transportation of these materials. Finally, 
we note that OHMS intends to kick-off a number of innovative 
initiatives with a flat-lined budget and in the face of unprecedented 
staff turnover, largely due to retirements. We, therefore, strongly 
recommend full funding for OHMS.
                                 ______
                                 
     Prepared Statement of the Capital Metropolitan Transportation 
                        Authority, Austin, Texas
    Mr. Chairman and members of the subcommittee: On behalf of the 
Capital Metropolitan Transportation Authority in Austin, Texas, I am 
pleased to submit this statement for the record in support of our 
fiscal year 2009 funding requests from the Federal Transit 
Administration and the Federal Highway Administration for Capital 
Metro--the transportation provider for Central Texas. I hope you will 
agree that the appropriating of funds for these Central Texas projects 
warrants serious consideration as Austin and the surrounding Texas 
communities plan for our region's growing transportation needs.
    First, let me thank you for your past financial support for 
transportation projects in Central Texas. Your support has proven 
valuable to Capital Metro and to our Central Texas community as we face 
new challenges.
    As you know, Interstate 35 runs from Canada to Mexico, and along 
the way it also runs through the city of Austin and Capital Metro's 600 
square mile service area. While traffic in this important corridor has 
always been a challenge, the North American Free Trade Agreement has 
resulted in increased traffic and congestion for our region. In fact, a 
2002 study by the Texas Transportation Institute determined Austin, 
Texas to be the 16th most-congested city nationwide.
    Also, Central Texas' air quality has reached near non-attainment 
levels. Together, our community has developed a Clean AirForce, of 
which Capital Metro is a partner, to implement cooperative strategies 
and programs for improving our air quality. Capital Metro has also 
unilaterally implemented several initiatives such as converting its 
fleet to clean-burning Ultra Low Sulfur Diesel (ULSD), becoming the 
first transportation authority in Texas to introduce environmentally-
friendly hybrid-electric buses, and creating a GREENRide program to 
carpool Central Texas workers in low emission hybrid gas/electric 
automobiles.
    To address these transportation and air quality challenges as well 
as our region's growing population, in 2004 Capital Metro conducted an 
extensive community outreach program to develop the All Systems Go 
Long-Range Transit Plan. This 25-year transportation plan for Central 
Texas was created by Capital Metro, transportation planners, and local 
citizens. More than 8,000 citizens participated in the design of the 
program that will bring commuter rail and rapid bus technologies to 
Central Texas. The plan will also double Capital Metro's bus services 
over the next 25 years.
    By a vote of over 62 percent, this long-range transportation plan 
was adopted by the Central Texas community in a public referendum on 
November 2, 2004. The plan received bipartisan support, along with 
endorsements from the business community, environmental organizations, 
neighborhood associations, and our community leaders.
    An important component of the All Systems Go Long Range Transit 
Plan is the creation of an urban commuter rail line along a 32-mile 
long freight rail line currently owned and operated by Capital Metro. 
The proposed starter route would provide urban commuter rail service 
extending from downtown Austin (near the Convention Center) through 
East and Northwest Austin and on to Leander. This project was entirely 
financed with local funds and will open in late 2008.
    To implement the community's All Systems Go Transit Plan, Capital 
Metro is seeking $10 million for fiscal year 2009 for three projects of 
importance to our Central Texas community. Each of the three projects 
is contained in the community-designed All Systems Go Long Range 
Transit Plan, and each will be funded by Capital Metro with a 
significant overmatch of local funds.
  enhancement and improvement of buses and bus facilities--$5 million
    Capital Metro has embarked on a long term plan to improve and 
expand bus service. In addition to improving bus routes, the agency is 
investing in critical park and ride facilities, transit centers and 
enhanced bus stop locations and amenities. As Capital Metro's service 
area and the population we serve continue to grow, we will continue to 
enhance our system and facilities while addressing traffic congestion 
and air quality concerns. In the next 3 years, Capital Metro has 
planned to invest nearly $300 million in capital projects to better 
serve our growing population. Capital Metro seeks $5 million from the 
appropriations process for these improvements and expansions of our bus 
service and facilities.
                    hike and bike trail--$3 million
    During Capital Metro's 2004 All Systems Go open houses, workshops 
and briefings, the Central Texas community encouraged Capital Metro to 
begin planning for bike and pedestrian trails along rail lines. Capital 
Metro has coordinated local efforts to plan for pedestrian and bicycle 
trails along several rail corridors in Capital Metro's service area.
    Capital Metro is seeking $3 million for its planned pedestrian and 
bicycle trail located in the right of way of its 32-mile Urban Commuter 
Rail line from Austin to Leander.
                paratransit service vehicles--$2 million
    Pursuant to, and in accordance with, the Americans with 
Disabilities Act, Capital Metro provides door-to-door van and sedan 
paratransit service throughout Central Texas for persons with 
disabilities and senior citizens. This $11.7 million fiscal year 2008 
program provides more than 500,000 rides each year. Capital Metro will 
be replacing many of the vans and sedans that serve this program, as 
they are retired during fiscal year 2009. This crucial funding will 
assist Capital Metro in ensuring the accessibility of transportation 
services for all Central Texans.
    I look forward to working with the Committee in order to 
demonstrate the necessity of these projects. Your consideration and 
attention are greatly appreciated.
                                 ______
                                 
      Prepared Statement of the National Association of REALTORS
  the federal housing administration`s role in addressing the housing 
                                 crisis
    The mortgage crisis continues to grow--homeowners continue to face 
foreclosure, and housing markets are in turmoil. For all these reasons, 
I and the 1.3 million members of the National Association of REALTORS 
thank you for holding this hearing on ``The Federal Housing 
Administration`s Role in Addressing the Housing Crisis.''
    In 1934 the Federal Housing Administration was established to 
provide consumers an alternative during a similar lending crisis. FHA 
served as the foundation for our housing market, which has served our 
citizens and our economy well for more than 70 years.
    However, as private mortgage markets evolved, FHA remained 
stagnant. Because FHA was unable to serve its core constituency, other 
mortgage providers stepped in to fill the gap. Without another 
alternative, many homebuyers were lured into these more exotic mortgage 
options, which fueled our current crisis. Even after all of this 
evidence, the need for a viable FHA remains unmet. Despite the best 
efforts of you and others, FHA reform has yet to be achieved.
    We urge you and your colleagues in the Senate to continue to work 
towards FHA reform. Permanent, realistic increases in the FHA loan 
limits; lowered FHA downpayment requirements; and new opportunities for 
condominium purchases are needed to create safe and affordable mortgage 
options for homebuyers and those wishing to refinance. These changes 
will also provide much needed stability to our local housing markets 
and economies.
    We also believe that the FHASecure program has been, and can 
continue to be a valuable tool for homeowners in crisis. This program, 
introduced in September 2007, gives credit-worthy homeowners who were 
making timely mortgage payments but are now in default, a second chance 
with a FHA insured loan product. We believe enhancements to this 
program can help an even greater number of borrowers without negatively 
impacting the sovereignty of the FHA insurance fund.
    As you know, through FHASecure, lenders and homeowners may 
refinance mortgages that, due to the increased mortgage payment 
following the interest rate reset have become delinquent. However, in 
many cases, subprime borrowers are becoming delinquent for reasons 
other than an interest rate reset meaning a rate reduction alone will 
not help borrowers avoid default or foreclosure.
    Specifically, we believe that where prudent, FHA should modify 
underwriting criteria in return for a lower loan-to-value ratio thereby 
assuring the lenders share risk. Changes include:
  --Permit late payments on fixed-rate and on conventional adjustable-
        rate mortgages without regard to interest rate reset or higher 
        DTI ratios.
  --Create a sliding scale whereby the number of late payments allowed 
        for qualification is dependent on the LTV ratio. For example, 
        LTV = 90 percent, with several late payments = 80 percent LTV.
  --Permit second mortgage with CLTV treatment like FHASecure.
    A borrower would only be permitted to utilize one of the program 
changes mentioned above for their mortgage. Loans that qualify for 
FHASecure under these changes could be placed into a special risk 
insurance fund to further protect FHA.
    We submitted these recommendations to HUD on February 15, for their 
consideration. Based upon testimony given by the FHA Commissioner on 
April 9, 2008 before the House Financial Services Committee, we are 
hopeful that these changes will be implemented. The enhancements 
proposed will allow a greater number of borrowers to avoid foreclosure 
and reduce their burden of debt. Risk to FHA will continue to be 
mitigated by traditional FHA underwriting standards beyond the 
recommended enhancements to the FHASecure Program.
    The National Association of REALTORS thanks you for your efforts 
to help stem the housing crisis. Congress must act expeditiously to 
help our Nation's homeowners, communities, and local economies recover. 
We applaud you efforts and stand ready to work with you on solutions.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                            Research (UCAR)
    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the university community involved in weather and climate 
research and related education, training and support activities, I 
submit this written testimony for the record of the Senate Committee on 
Appropriations, Subcommittee on Transportation and Housing and Urban 
Development, and Related Agencies.
    UCAR is a consortium of 71 universities that manages and operates 
the National Center for Atmospheric Research (NCAR) and additional 
research, education, training, and research applications programs in 
the atmospheric and related sciences. The UCAR mission is to serve and 
provide leadership to the atmospheric sciences and related communities 
through research, computing and observational facilities, and education 
programs that contribute to betterment of life on Earth. In addition to 
its member universities, UCAR has formal relationships with over 100 
additional undergraduate and graduate schools including several 
historically black and minority-serving institutions, and 40 
international universities and laboratories. UCAR is supported by the 
National Science Foundation (NSF) and other Federal agencies including 
the Federal Highway Administration (FHWA), and the Federal Aviation 
Administration (FAA). I would like to comment on the fiscal year 2009 
budgets for these agencies.
                   the federal highway administration
    The fiscal year 2009 budget request for the FHWA should support the 
administration's and the country's commitment to a safe, efficient, and 
modern surface transportation system. Weather research and intelligent 
transportation system (ITS) technology significantly contributes to 
this commitment. According to the National Academy of Sciences, adverse 
weather conditions obviously reduce roadway safety, capacity and 
efficiency, and are often the catalyst for triggering congestion. In 
the United States each year, approximately 7,000 highway deaths and 
450,000 injuries are associated with poor weather-related driving 
conditions. This means that weather plays a role in approximately 28 
percent of all crashes and accounts for 19 percent of all highway 
fatalities.
Road Weather Research and Development Program--Request: $3.3 Million
    Bad weather contributes to 15 percent of the Nation's congestion 
problems; the economic toll of weather-related deaths, injuries and 
delays is estimated at $42 billion per year. The Road Weather Research 
and Development Program (section 5308 in the SAFETEA-LU authorization 
bill) funds the collaborative work of surface transportation weather 
researchers and stakeholders. This work is potentially life saving for 
the users of the national surface transportation system. Much has been 
accomplished already in understanding and developing decision support 
systems to address the impact of poor weather on the surface 
transportation system including congestion. For example, State 
Departments of Transportation (DOTs) have already benefitted from the 
development and implementation of real world decision support 
solutions, including the Winter Maintenance Decision Support System 
which has been successfully demonstrated by 23 State DOTs, and the 
Clarus System, a research and development initiative to demonstrate and 
evaluate the value of integrating and processing data from State DOT 
weather observation systems across the Nation. However, additional 
resources are required to develop technologies that will support 
improvements in traffic and emergency management to develop, test, and 
implement solutions nationally that will reduce congestion and save 
lives.
    A fully funded Road Weather Research and Development Program could 
support such activities as developing technologies that would integrate 
weather and road condition information in traffic management centers, 
improved understanding of driver behavior in poor weather, developing 
in-vehicle information systems and wireless technologies that provide 
warnings to drivers when poor weather and road conditions exist, 
improving the understanding of the impact of weather on pavement 
condition, and developing new active control strategies (e.g., signal 
timing and ramp metering) optimized for poor weather and road 
conditions.
    SAFETEA-LU (section 5308) contains language that established the 
Road Weather Research and Development Program within the FHWA ITS 
Research and Development Program, with annual authorized funding at 
$5.0 million (significantly less than the National Research Council's 
recommendation of $25.0 million). This road weather research program is 
well supported by numerous organizations including the American 
Association of State Highway and Transportation Officials (AASHTO), the 
Intelligent Transportation Society of America (ITSA), the 
Transportation Research Board (TRB), the National Research Council 
(NRC), State Departments of Transportation (DOTs), numerous commercial 
weather service companies, and the American Meteorological Society 
(AMS). Improved safety, capacity, efficiency and mobility, of the 
national roadway system will benefit the general public, commercial 
trucking industry, State DOT traffic, incident and emergency managers, 
operators and maintenance personnel. Environmental benefits will be 
realized due to improved efficiency in the use of anti-icing and 
deicing chemicals for winter maintenance, reduced congestion, and 
improved mobility. I urge the subcommittee to fund the Road Weather 
Research and Development Program at the authorized level of $5.0 
million, at a minimum, in fiscal year 2009.
                 federal aviation administration (faa)
    Fliers nationwide are stuck in an air traffic jam. Famous for 
delays, Chicago, New York, and most recently, Newark airports, have all 
reached travel capacity, forcing them to reduce the number of flights 
in and out. To make matters worse, it is estimated that by 2025 U.S. 
air transportation will increase two to three times. Today's existing 
air traffic control system will not be able to manage this staggering 
growth rate. Fortunately, the Federal Government has proactively 
responded by undertaking an unprecedented initiative: the Next 
Generation Air Transportation System (NextGen). While a joint effort 
involving a number of agencies, the FAA has taken the lead by 
developing a budget that truly supports developing and implementing 
NextGen. The FAA accounts mentioned in this testimony all support the 
much-needed transformation of the National Airspace System.
          research and engineering development account (re&d)
    The following programs can be found within the RE&D section of the 
fiscal year 2009 FAA budget request.
Weather Program--Request: $16.9 Million
    According to the FAA, 70 percent of flight delays are caused by 
weather. A key area for NextGen is using advanced forecasting 
techniques and shared information among all system users--dispatchers, 
pilots and controllers. FAA's Weather Program is a research program 
focused on improved forecasts of atmospheric hazards such as 
turbulence, icing, thunderstorms and restricted visibility. Improved 
forecasts enhance flight safety, reduce air traffic controller and 
pilot workload, and enable better flight planning and productivity. The 
request of $16.9 million, however, is essentially flat; in real terms, 
it is down. To truly reduce delays associated with weather, it is 
essential this program be provided at least $20 million. Enhanced 
research and improved technologies will result in longer forecast lead 
times, increased accuracy and ultimately, more efficiency and safer 
skies. Two years ago, the request for the Weather Program was $19.5 
million, but has declined since. I urge the subcommittee to support the 
goals of NextGen and provide the Weather Program $20.0 million, at a 
minimum, in fiscal year 2009.
Weather Technology in the Cockpit--Request: $8 Million
    Weather, according to the FAA, is more than twice as likely to 
cause general aviation fatalities as any other factor and is also the 
largest cause of general aviation fatalities in the United States, 
equating to 200 deaths annually. Weather uplinks in the cockpit, when 
combined with a thorough preview of the weather during pre-flight 
planning and other cockpit weather avionics, will help ensure that 
general aviation pilots increase awareness and reduce accidents. 
Weather Technology in the Cockpit, a new and innovative program, will 
provide a common weather picture to pilots, controllers, and users, and 
will expedite flight planning and decisionmaking. ``Cockpit weather'' 
applied research will focus on hardware and software standards, 
integrate weather information, and prototype forecasting products for 
the flight deck. I urge you to support the fiscal year 2009 request of 
$8 million, which will revolutionize the way pilots and controllers 
receive and use weather information in real-time.
Joint Planning and Development Office (JPDO)--Request: $20 Million
    The multi-agency Joint Planning and Development Office (JPDO) has 
accomplished much since its inception 5 years ago. The JPDO has a 
challenging mandate: to coordinate and manage six agencies focused on 
bringing NextGen online by 2025. It has completed its integrated work 
plan on how NextGen will improve safety, security, mobility, 
efficiency, and capacity to transform the Nation's air transportation 
system. Recently, the Secretary of Transportation tasked the JPDO to 
develop an action plan that would accelerate implementation of NextGen. 
The plan will address constraints and opportunities in both the near- 
and mid-term. After the action plan is approved, the intent is for the 
partner departments and agencies to start immediate implementation. In 
order to move forward with this directive, I urge the subcommittee to 
fund the Joint Planning and Development Office at the fiscal year 2009 
request of $20 million.
Wake Turbulence--Request: $10.1 Million
    Aircraft in flight create wake turbulence, dangerous swirling air 
masses that trail from aircraft wingtips. Better detection and 
forecasting of wake turbulence is a key element in the FAA's safety 
program. Research results and technologies derived from the Wake 
Turbulence program will allow airports and airlines to operate more 
efficiently, increasing capacity and safety, by providing a better 
understanding of this phenomenon. I urge the subcommittee to support 
the fiscal year 2009 request of $10.1 million for the wake turbulence 
program.
Atmospheric Hazards/Digital System Safety--Request: $4.8 Million
    The Atmospheric Hazards/Digital System Safety Research Program 
focuses on reducing the number of accidents or potential accidents 
associated with aircraft icing. The program promises to develop and 
test technologies that detect icing, predict anti-icing fluid failure, 
and ensure safe operations both during and after flight in icing 
conditions. To prevent the number and severity of icing-associated 
accidents, I urge you to support the fiscal year 2009 request of $4.8 
million for this life-saving program.
 within faa's air traffic organization--capital programs, i would ask 
  that you pay particular attention to the following critical programs
NextGen Network Enabled Weather (NNEW) and Reduced Weather Impact 
        Request: NNEW: $20 Million Reduced Weather Impact: $14.4 
        million
    The current weather dissemination system is inefficient to operate 
and maintain. Information gathered by one system is not easily shared 
with other systems. This leads to redundant and inconsistent 
information, and in many cases information not being universally 
available or used leading ultimately to suboptimal decisions. The 
complementary goals of NNEW and RWI are to integrate tens of thousands 
of global weather observations and sensor reports from ground-, 
airborne-, and space-based sources into a single national (eventually 
global) weather information system, constantly updated as needed. This 
integration will be enabled by system-wide availability of 
observational and forecast weather information to all NextGen users, 
service providers, military planners, security personnel, and the 
flying public. The key word is ``information.'' No longer will it be 
necessary to manually gather and integrate diverse weather data to 
realize a coherent picture of the weather situation--that will be 
accomplished with automation assistance prior to dissemination to 
interested parties. This will enable ``common situational awareness'' 
of the weather, and rapid dissemination of any changes.
    The request of $20 million for NNEW is significantly more than the 
fiscal year 2008 enacted level of $7 million, which illustrates the 
FAA's commitment to NextGen. Because NextGen Network Enabled Weather 
and the Reduced Weather Impact Program are directly aligned with the 
goals of a flexible, safe, efficient air traffic system, I urge you to 
support the fiscal year 2009 request of $20 million for NNEW and $14.4 
million for Reduced Weather Impact.
Wind Profiling and Weather Research-Juneau--Request: $1.1 Million
    In the late 1990s, after two 737s encountered severe turbulence 
during departure from the Juneau Airport, the FAA mandated a system be 
developed to provide high-wind alerts to pilots at the airport. The 
Wind Profiling and Weather Research-Juneau program supports the design 
and development of the Juneau Airport Wind System (JAWS), an 
operational system designed to detect and warn of wind and airport 
turbulence hazards. This will result in reduced severe delays and 
flight cancellations. The fiscal year 2009 request of $1.1 million, 
however, is a dramatic cut, which is extremely disruptive to the 
research program. In order to complete the work of developing this 
turbulence alerting system, I urge the subcommittee to support the 
fiscal year 2008 enacted level of $4.0 million for Wind Profiling and 
Weather Research-Juneau.
    On behalf of UCAR, as well as all U.S. citizens who use the surface 
and air transportation systems, I want to thank the subcommittee for 
the important work you do that supports the country's scientific 
research, training, and technology transfer. We understand and 
appreciate that the Nation is undergoing significant budget pressures 
at this time, but a strong Nation in the future depends on the 
investments we make in research and development today. We appreciate 
your attention to the recommendations of our community concerning the 
fiscal year 2009 FHWA and FAA budgets and your concern for safety 
within the Nation's transportation systems.
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors
    The Coalition of Northeastern Governors (CONEG) is pleased to share 
with the Subcommittee on Transportation, Housing and Urban Development, 
and Related Agencies this testimony on fiscal year 2009 appropriations 
for transportation and community development programs. The CONEG 
Governors appreciate the subcommittee's longstanding support of funding 
for the Nation's highway, transit, and rail systems and critical 
community development programs. We understand the particularly 
difficult fiscal challenges and complex, interlocking issues that the 
subcommittee faces in crafting this appropriations measure. We urge the 
subcommittee to continue the strong Federal partnership so vital for a 
national, integrated, multi-modal transportation system. This network 
underpins the competitiveness of the Nation's economy, broadens 
employment opportunities, and contributes to the efficient, safe, 
environmentally sound, and energy smart movement of people and goods.
                             transportation
Surface Transportation
    The Governors recognize the impending shortfall in the Highway 
Trust Fund and the still-uncertain outcome of proposed short-term 
solutions. However, we urge the subcommittee to fund the combined 
highway, public transit, and safety programs at the fiscal year 2009 
levels authorized in the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users (SAFETEA-LU). This level 
of Federal investment is necessary to sustain the progress made under 
SAFETEA-LU to improve the condition and safety of the Nation's 
highways, bridges, and transit systems.
    Continued and substantial Federal investment in these 
infrastructure improvements--in urban, suburban, exurban, and rural 
areas--is necessary to safely and efficiently move people and products 
and support the substantial growth in freight movement projected in the 
coming decades. A significant increase in public investment is needed 
to keep America competitive in a global economy. According to the 
majority report of the National Surface Transportation Policy and 
Revenue Study Commission, at least $225 billion annually is needed from 
all sources--public (Federal, State and local) and private--for the 
next 50 years to upgrade the existing infrastructure system to a state 
of good repair and to create the advanced system that can sustain and 
ensure strong economic growth nationwide.
    Specifically, the CONEG Governors urge the subcommittee to:
  --support a Federal aid highway obligation limit at the authorized 
        level of $41.2 billion; and
  --fund public transit at the authorized funding level of $10.3 
        billion, including full funding for Formula and Bus Grants, the 
        Capital Investment Grants, and the Small Starts Programs.
    The Governors also urge the subcommittee to fund the Transit 
Security Grant program at the full $750 million as authorized in Public 
Law 110-53 (Implementing Recommendations of the 9/11 Commission Act of 
2007). This critically needed funding makes the Federal Government a 
partner with State and local governments and public transportation 
authorities in enhancing the security of the Nation's public 
transportation systems and their tens of millions of riders.
    While recognizing the difficult decisions facing the Congress, the 
Governors are also concerned about several techniques--actual or 
proposed--to manage the Highway Trust Fund and appropriations outlays. 
For example, the recent practice of mandating how to rescind 
unobligated highway funding is now cutting into the States' ability to 
make planned investments and deliver much needed transportation 
improvements.
    The Governors also oppose the administration's proposal to cover 
the projected shortfall in the Highway Account of the Highway Trust 
Fund by transferring $3.2 billion from the Mass Transit Account to the 
Highway Account. This proposal would jeopardize the future of public 
transportation funding while sidestepping the underlying problem facing 
the Highway Account. A more appropriate short-term solution is timely 
action on the proposals to secure additional revenues to the Highway 
Account contained in title II of the American Infrastructure Investment 
and Improvement Act of 2007 (S. 2345) currently pending in the Senate.
Rail
    Rising fuel prices and congested highways and airways make 
intercity passenger rail an ever more vital component of a national, 
balanced transportation system. Increasing market demand for intercity 
passenger rail travel is creating unique opportunities for growth in 
Amtrak's revenue. Amtrak's ability to respond to these opportunities 
requires substantial and on-going maintenance and ``state of good 
repair'' capital investments essential for the reliable, on-time 
service that attracts and retains ridership.
    The Governors request that the subcommittee provide $1.78 billion 
in fiscal year 2009 Federal funding for Amtrak, with specific funding 
levels provided for operations, capital, and debt service. We recognize 
that Amtrak faces a one-time need for additional funding in fiscal year 
2009 to meet its legal obligations for ``back pay'' as part of the 
Presidential Emergency Board recommendations, which are close to final 
ratification.
    A funding level of $801.4 million in fiscal year 2009 for capital 
improvements is critically needed for the ``state of good repair'' 
improvements to aging infrastructure and equipment. These capital 
investments are vital to Amtrak's ability to deliver efficient, 
reliable, quality service nation-wide. We particularly encourage the 
subcommittee to ensure that Amtrak can continue bridge repair projects 
underway on the Northeast Corridor, as well as the system-wide security 
upgrades and the life-safety work in the New York, Baltimore, and 
Washington, DC tunnels as authorized under Public Law 110-53 (sections 
1514 and 1515).
    The Governors recognize that the subcommittee has initiated 
internal Amtrak reforms while intercity passenger rail authorization 
legislation is pending. We welcome the subcommittee's consistent 
commitment to continued transparency and accountability in Amtrak's 
financial and data systems, and to meaningful collaboration in its 
dealings with State partners. This guidance, including the requirement 
that Amtrak consult with its State partners and report to the Congress 
on the results of those discussions, has set the stage for productive 
coordination and information-sharing, particularly on the future of the 
Northeast Corridor Network.
    The CONEG Governors appreciate the subcommittee's leadership in 
creating and providing initial funding for the State Intercity 
Passenger Rail Grant Program. This program provides an important 
foundation for a vibrant Federal-State partnership that will bring 
expanded, enhanced intercity passenger rail service to corridors across 
the Nation. We urge the subcommittee to provide the requested $100 
million for this program, and to ensure that 10 percent is directed to 
corridor development planning and that an additional 5 percent to 
essential education and outreach initiatives.
    A number of other national rail programs are important components 
of the evolving Federal-State-private sector partnerships to enhance 
passenger and freight rail across the country. We encourage the 
subcommittee to provide funding for the Rail Relocation Program, the 
Swift High Speed Rail Development Program, the Next Generation High 
Speed Rail program, and the Nationwide Differential Global Position 
System effort--all of which benefit passenger rail and freight rail 
systems. In addition, initial funding for the Advanced Technology 
Locomotive Grant Pilot Program, created in section 1111 of the Energy 
Independence and Security Act of 2007, would be an important first step 
to assist the railroads and State and local governments in a transition 
to energy-efficient and environmentally friendly locomotives for 
freight and passenger railroad systems.
    The CONEG Governors also support a modest increase in funding for 
the Surface Transportation Board (STB) above the overall $26.3 million 
provided in fiscal year 2008. This funding level will allow the STB to 
provide critical oversight as the Nation's rail system assumes 
increasing importance for the timely, efficient, and environmentally 
sound movement of people and goods across the Nation.
                         community development
    The CONEG Governors urge the subcommittee to provide at least $4.1 
billion for the Community Development Block Grant (CDBG) program. The 
CDBG program enables States to provide funding for infrastructure 
improvement, housing programs, and projects that attract businesses to 
urban, suburban, exurban, and rural areas, creating new jobs and 
spurring economic development, growth and recovery in the Nation's low 
income and rural communities.
    The CONEG Governors thank the entire subcommittee for the 
opportunity to share these priorities and appreciate your consideration 
of these requests.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians, we are 
pleased to present testimony on the administration's fiscal year 2009 
budget request for transportation and housing programs. We look forward 
to working with this subcommittee to ensure that the critical programs 
and initiatives funded are at levels which will ensure their long term 
effectiveness.
                               background
Housing
    A successful start in life depends on safe, quality and affordable 
housing, which helps to prevent and alleviate other physical and social 
problems from occurring, including lack of educational achievement and 
poor health. These types of problems make it difficult to obtain and 
maintain employment, creating further economic hardship for Indian 
families. The Native American Housing and Self-Determination Act 
(NAHASDA) allowed tribes to be more resourceful in creating homes for 
their members. NAHASDA modernize how Native American housing funds are 
provided by recognizing tribes' authority to make their own business 
decisions. Tribes have been able to increase capacity housing and 
improve infrastructure conditions in Indian Country. However, housing 
need continue to rise as do the maintenance needs of Housing and Urban 
Development (HUD) homes.
    Because of NAHASDA, tribes are better able to address the needs of 
their communities. In 1995, 20 percent of tribal residents lacked 
complete plumbing. This number was reduced to 11.7 percent by 2000, 
although it is still far higher than the 1.2 percent for the general 
population. In 2000, 14.7 percent of tribal homes were overcrowded, a 
drop from 32.5 percent in 1990. Despite improvements, severe conditions 
still remain in some tribal homes, with as many as 25-30 people living 
in houses with as few as three bedrooms. Native Americans are also 
becoming homeowners at an increasing rate, 39 percent more from 1997 to 
2001. Fannie Mae's investment in mortgages increased exponentially, 
from $30 million in 1997 to more than $640 million in the most recent 5 
year period.
    Although tribes have the desire and potential to make headway in 
alleviating the dire housing and infrastructure needs of their 
communities, tribes' housing needs remain disproportionately high and 
disproportionately underfunded. Due to funding levels and population 
growth tribal housing entities are only able to maintain the status 
quo.
Transportation
    The nearly 56,000 mile system of Indian Reservation Roads (IRR) is 
the most underdeveloped road network in the Nation \1\--yet it is the 
primary transportation system for all residents of and visitors to 
American Indian and Alaska Native communities. Over two-thirds of the 
roads on the system are unimproved dirt or gravel roads, and less than 
12 percent of IRR roads are rated as good.\2\ The condition of IRR 
bridges is equally troubling. Over 25 percent of bridges on the system 
are structurally deficient.\3
\\---------------------------------------------------------------------------
    \1\ Bureau of Indian Affairs, Transportation Serving Native 
American Lands: TEA-21 Reauthorization Resource Paper (2003).
    \2\ Id.
    \3\ Id.
---------------------------------------------------------------------------
    Building a transportation system that allows for safe travel and 
promotes economic expansion will help us strengthen our tribal 
communities while at the same time making valuable contributions to 
much of rural America. Surface transportation in Indian Country 
involves thousands of miles of roads, bridges, and highways. It 
connects and serves both tribal and non-tribal communities.
    Tribal communities share much the same obstacles as rural 
communities in addressing how to improve transportation needs. NCAI has 
diligently worked with tribal governments to find solutions for 
improving the transportation infrastructure of Indian Country. Tribes 
are pro-active in this effort through the legislative process, by 
building partnerships with other entities, and by generating revenue to 
assist in financing their transportation projects.
    Even though great strides have been made, there is still a 
tremendous need to address the terrible conditions of surface 
transportation on tribal land. These conditions significantly impact 
the daily lives of tribal members and the entire governments of tribal 
nations. Tribal communities as well as rural America require a proper 
infrastructure if they are both to become thriving hubs of economic 
growth and opportunity.
    Economic development cannot occur without a solid foundational 
infrastructure that must involve adequate surface transportation. 
Improving transportation systems sets the stage for economic 
development. Connecting people within tribal communities and to the 
areas and communities that surround Indian Country is vital for 
business, industry, and labor. Sustaining both the tribal communities 
and surrounding communities through viable surface transportation 
systems improves the lives of all involved.
    Another important reason for improving transportation systems is to 
enhance public safety. Insufficient transportation systems increase the 
risk factor for law enforcement and emergency personnel in responding 
to emergency situations. The fatality rate on roads on the Indian 
Reservation Road (IRR) System has the highest national average. 
Inadequate roads are a major contributor to vehicle crashes. These 
emergencies cost tribes millions of dollars each year in lost 
productivity, property damage, higher insurance premiums, medical and 
rehabilitative treatment. And that still does not factor in the human 
suffering of victims and their families. The poor condition of many 
tribal roads and bridges jeopardizes the health, safety, security and 
economic well-being of our tribal members. This environment creates 
dangerous and deadly situations for all who drive within Indian 
Country.
              department of housing and urban development
    The President proposed increased funding for the Indian 
homeownership program; however he proposed decreases in other Indian 
programs in the HUD. The section 184: Indian Housing Loan Guarantee 
Program, $420 million for fiscal year 2009, is an increase of over $53 
million over the enacted fiscal year 2008 amount. This increase is to 
promote homeownership and to address the lack of mortgage capital on 
tribal lands. The President's request for fiscal year 2009 proposes the 
amount of $627 million for the Native American Housing Block Grant, an 
amount similar to his request for fiscal year 2008. In addition, the 
President's budget for fiscal year 2009 requests $57 million for the 
Indian Community Development Block Grant, a decrease of $5 million from 
the enacted fiscal year 2008 amount.
    Native American Housing Block Grant.--The President's request for 
fiscal year 2009 proposes the amount of $627 million for the Indian 
Housing Block Grant.
  --NCAI recommends $750 million, which would maintain funding at the 
        fiscal year 2002 level adjusted for inflation.
    Indian Community Development Block Grant.--These funds are 
dedicated to improve not only housing but the overall economy and 
community development of tribal communities. Community development 
includes a variety of commercial, industrial and agricultural projects.
  --This budget area has faced numerous and devastating reductions over 
        the last few years and its funding needs to be increased to a 
        more realistic level of $77 million.
    Section 184 Program.--Created in 1992, the section 184 program 
provides 100 percent reimbursement to private lenders in case of 
default. Tribes have been successful in participating in this program 
with little to no defaults. Under section 184, tribes or tribal members 
can purchase an existing home or obtain single-close construction loans 
for a stick-built or a manufactured home on a permanent foundation, 
rehabilitation loans or a purchase and rehabilitation loan. This 
underutilized program continues to grow as TDHEs expand their housing 
programs beyond low-income programs, tailoring them to meet the needs 
of their people.
  --NCAI recommends $420 million for section 184.
                      department of transportation
    Federal-aid Highway Program.--The President proposed essentially 
flat funding for Indian programs in the Department of Transportation. 
The President has proposed for the Federal-aid Highway Program $39.6 
million, a slight increase from the $39,585,000 for enacted fiscal year 
2008. Indian tribes receive funding under the Federal Lands Highway 
Program (FLHP), which improves the access to and within Federal lands 
such as Indian reservations.
  --NCAI recommends the authorized amount of $450 million for Indian 
        Reservation Road Programs.
    Pipeline and Hazardous Materials Safety Administration-Emergency 
Preparedness Grant.--The Pipeline and Hazardous Materials Safety 
Administration provides funding to Indian tribes, States, and local 
governments under their program. This program primarily focuses on 
reducing serious hazardous materials and pipeline transportation. This 
agency provides training and planning grants to Indian tribes to 
improve hazardous materials emergency preparedness. The funding request 
for fiscal year 2009 is leveled for this program in the amount of $28 
million.
  --NCAI recommends the $28 million for the Emergency Preparedness 
        Grant.
    Highway Traffic Safety Grant.--The National Highway Traffic Safety 
Administration (NHTSA) which gives grant funding to Indian tribes, 
States, and territories under their Highway Traffic Safety Grant, 
includes; the supports for highway safety initiatives; to improve 
traffic records and other data systems for safety traffic information; 
and alcohol-impaired driving countermeasures incentives for addressing 
alcohol driving incidents. For fiscal year 2009, the funding level for 
this program is elevated from the enacted fiscal year 2008 in the 
amount of $599 million. According to USC, tribes receive 1\1/2\ percent 
of the total allocation amount. Statutorily, Indian tribes are eligible 
to receive 2 percent of the total appropriation authorized amount from 
the NHTSA funding amount.
  --NCAI recommends that authorized amount of $4.3 million for Indian 
        tribes from NHTSA.
                                 ______
                                 
 Prepared Statement of the Council of Large Public Housing Authorities
    Chairwoman Murray, Ranking Member Bond and members of the 
subcommittee, on behalf of the Council of Large Public Housing 
Authorities (CLPHA), thank you for the opportunity to submit testimony 
for the record on the administration's proposed fiscal year 2009 public 
housing budget. CLPHA members represent virtually every major 
metropolitan area in the country and on any given day, they serve more 
than 1 million households. Together, they manage approximately 40 
percent of the Nation's multi-billion dollar public housing stock, and 
administer over 30 percent of the section 8 voucher program.
    Last year, a first-ever national study measuring the economic 
impact of public housing concluded that public housing is an essential 
part of the housing market and makes significant contributions to local 
economies. The Econsult study showed that direct spending by public 
housing authorities on capital improvements, maintenance and operations 
generates additional dollar-for-dollar indirect economic activity in 
local communities.
    Given the uncertain economic conditions of today's housing market--
with record-setting foreclosure rates among homeowners, a crisis in the 
credit and home mortgage lending industries, and an insufficient supply 
of rental housing nationwide--the housing crisis we are facing will 
place even greater pressure on the type of decent, safe, and affordable 
housing provided by public housing communities. Regrettably, this 
administration's proposed fiscal year 2009 budget is a continuation of 
a now 8 year effort to cripple, dismantle, devalue, and under fund 
public housing as we know it.
                             operating fund
    The administration's proposal of $4.3 billion for the Operating 
Fund is a paltry increase of $100 million over last year's 
appropriation. HUD's own budget justifications indicate that $5.3 
billion is needed to fully fund the Operating Fund in fiscal year 2009. 
Furthermore, the Operating Fund has not been fully funded since 2002 
and estimates show that during those years, public housing lost nearly 
$3 billion in operating subsidies alone. At 81 percent funding, in 
essence, this budget proposal fails to fund 19 percent of--or 
approximately 227,000--public housing units. Housing authorities will 
cope with this low proration by reducing services to residents. Also, 
with insufficient resources to properly maintain existing units, the 
problem becomes cyclical, with more units becoming severely distressed.
    Coupled with the under-funding is HUD's problematic implementation 
of asset management and the restrictions HUD placed on management fees 
that prevent housing authorities from charging reasonable fees for 
administration. These continued shortfalls in annual public housing 
funding will make the transition to asset management needlessly 
difficult, if not impossible to achieve, and will result in negative 
consequences for resident services.
  --CLPHA requests the Senate Appropriations fully fund the Operating 
        Fund at the industry recommended level of $5.3 billion in 
        fiscal year 2009.
                              capital fund
    The administration's proposal for $2.024 billion is approximately 
$415 million less than the amount appropriated in fiscal year 2008. 
This funding request is considerably lower than annual accrual needs 
and therefore, funding at this level would severely under-fund accrual 
needs by more than $700 million in fiscal year 2009. Furthermore, it 
completely ignores the backlog of modernization needs, which could be 
in the tens of billions.
    The negative impacts of under-funding the Capital Fund will have 
harmful trickle down effects on private sector investments. Housing 
authorities are currently able to raise private capital by pledging 
their future Capital Funds toward the repayment of bonds and loan. To 
date, housing authorities have borrowed $3 billion through the Capital 
Fund Financing Program (CFFP) and have used the money creatively to 
make large-scale comprehensive improvements to their developments. 
Thus, under-funding the Capital Fund will create uncertainty for 
private investors. Similarly, private lenders will avoid future 
investments in public housing neighborhoods. As a result, housing 
authorities who borrow against their future years' Capital Fund 
allocations will be unable to address future years' annual capital 
needs. This will result in the delay of necessary services and 
upgrades, inevitably leading to future higher costs for essential 
repairs. Thus, if the Capital Fund is fully funded in fiscal year 2009, 
housing authorities will be able to meet accrual needs, begin to 
address the modernization backlog, and continue to encourage private 
sector investment in public housing neighborhoods.
  --CLPHA requests the Senate Appropriations fully fund the Capital 
        Fund at the industry requested level of $3.5 billion in fiscal 
        year 2009.
                                hope vi
    In fiscal year 2009, for the third consecutive year, the 
administration is proposing to end HOPE VI. HOPE VI is an essential 
tool for public housing authorities and has leveraged more than $12 
billion in additional private and public investment since the program 
began in 1993. HOPE VI has transformed communities of despair and 
unrelenting concentrations of poverty into mixed-income communities 
that will serve as long-term assets in their neighborhoods. In 1993, 
when the program was first authorized, the stated goal was to demolish 
severely distressed public housing, estimated at that time to be 
100,000 units. Today, 15 years later, we are still faced with a 
substantial number of severely distressed public housing units and 
estimates show there may be an additional 82,000 units. The work of 
HOPE VI is not yet over as there is still much work to be done.
  --CLPHA requests the Senate Appropriations reauthorize, expand and 
        provide adequate funding of $800 million for the HOPE VI 
        program.
              tenant-based housing choice voucher program
    In fiscal year 2009, the administration is proposing $14.3 billion 
and an offset of $600 million for renewals under the Tenant-Based 
Housing Choice Voucher Program. However, the industry estimates that 
$15.4 billion is needed for tenant-based renewals. Therefore, HUD's 
request would fail to support between 55,000-100,000 vouchers currently 
in use. HUD proposes that public housing authorities be funded ``based 
on the amount public housing agencies were eligible to receive in 
calendar year 2008 and by applying the 2009 annual adjustment factor.'' 
This budget based approach does not account for significant changes in 
local housing markets, nor does it reward housing authorities for 
improved utilization costs. Funding for the housing choice voucher 
program should continue to be funded by using actual leasing and cost 
data, as it has for the past two funding cycles. Even though HUD and 
OMB recognize the voucher program as one of the most effective 
Government programs, this proposed budget does not provide the full 
funding required for continued success.
  --CLPHA requests the Senate Appropriations fully fund the renewal of 
        the Tenant-Based Housing Choice Voucher program at the industry 
        requested level of $15.4 billion.
                       tenant protection vouchers
    This year, the Tenant Protection account is cut from $200 million 
in fiscal year 2008 to $150 million in fiscal year 2009. HUD claims 
additional costs for tenant protection vouchers may be obtained by 
using un-obligated balances from funds in the Housing Certificate Fund 
or from Annual Contributions for Assisted Housing. HUD also proposes 
removing the requirement that a tenant protection voucher be provided 
for all units that were occupied in the previous 24 months that cease 
to be available for occupancy. Here again, HUD will attempt to limit 
affordable housing opportunities for low-income families.
  --CLPHA requests the Senate Appropriations fully fund Tenant 
        Protection Vouchers in fiscal year 2009.
                          administrative fees
    HUD proposes $1.4 billion for administrative fees in fiscal year 
2009, a $49 million increase over fiscal year 2008. This amount is 
insufficient. The fiscal year 2008 administrative fees were prorated at 
86 percent so if they were fully funded, the fees would require over 
$1.5 billion in fiscal year 2009.
  --CLPHA requests the Senate Appropriations fully fund Administrative 
        Fees at the industry recommended level of $1.54 billion.
                          safety and security
    Since 2002, the administration's budget provides no specific 
funding for safety and security in public housing through the Public 
Housing Drug Elimination Program (PHDEP). It fails to see the 
widespread, positive impact the program has gained and its strong 
support from PHAs, residents, local law enforcement and other concerned 
parties. Since PHDEP's termination, housing authorities have had to use 
their already scarce operating subsidies to combat crime and drugs, and 
ensure safety in their units.
  --CLPHA requests the Senate Appropriations fully fund Safety and 
        Security at the industry recommended level of $310 million.
                     resident opportunity services
    For fiscal year 2009, the administration recommends $38 million for 
supportive services, service coordinators, and congregate services. 
This is a $2 million reduction from fiscal year 2008 and is budgeted in 
the Public Housing Capital Fund, which has the effect of further 
reducing the total funding for capital needs. CLPHA strongly supports 
and urges separate funding for the ROSS program in order to address the 
critical, on-going need for supportive services among our most 
vulnerable residents, including the elderly and persons with 
disabilities.
  --CLPHA requests the Senate Appropriations fully fund Resident 
        Opportunity Supportive Services as a separate program at the 
        industry recommended level of $55 million.
                            other set-asides
    This year, HUD proposes $48 million for Family Self-Sufficiency 
coordinators, $1 million less than the fiscal year 2008 appropriation. 
HUD also proposes $39 million to prevent displacement of the elderly 
and disabled families who receive assistance by the Disaster Assistance 
Program, and $75 million for incremental vouchers administered in 
conjunction with the Department of Veterans Affairs.
  --CLPHA requests the Senate Appropriations fully fund Service 
        Coordinators for the Elderly and Disabled at the industry 
        recommended level of $50 million.
    CLPHA members remain committed to providing quality housing and 
management services in public housing. However, without adequate 
funding, public housing authorities cannot ensure that housing is 
properly maintained or needed services are available. Given increasing 
housing costs and struggling housing markets across the country, 
protecting and preserving public housing has proven ever more critical 
to low-income families. We appreciate the opportunity to submit our 
comments and public housing funding requests to the subcommittee. We 
look forward to continuing to work with the subcommittee in our joint 
efforts to advocate for, and deliver, safe and affordable public 
housing to our Nation's most disadvantaged and vulnerable persons.
                                 ______
                                 
Prepared Statement of the American Association of Service Coordinators 
                                 (AASC)
    The American Association of Service Coordinators (AASC) appreciates 
the opportunity to share our views on the fiscal year 2009 
appropriations for the Department of Housing and Urban Development 
(HUD). While we have funding concerns with a number of programs 
contained in the THUD fiscal year 2009 appropriations bill, we will 
focus our comments on resources needed for the staffing of service 
coordinators in federally assisted and public housing.
    Service coordinators have helped thousands of low-income elderly, 
persons with disabilities, and others with special needs to link with 
community-based health and supportive services. While most local 
communities may have available the various services needed, they are 
highly fragmented, not well known, and/or have complexities that have 
hindered easy access. By providing timely assistance, service 
coordinators have enabled many frail and vulnerable older persons to 
achieve their preference to remain in their home for as long as 
possible. Without the benefit of service coordinators, many vulnerable 
persons have been forced to move prematurely into more costly settings, 
such as nursing homes.
    Service coordinators in federally assisted housing are funded 
through a number of sources, including national competitive grants 
funded through the section 202 Elderly Housing Program. However, since 
the service coordinator grant program was established there have been 
insufficient funds available to enable service coordinators to be 
staffed in most eligible federally assisted housing. Findings of a 
recent HUD survey revealed that there are about 1,500 service 
coordinators funded through the competitive grant program which 
represents less than one-third of the more than 12,000 eligible housing 
facilities. Current eligible facilities for these grants are those 
funded with: section 202 without PRACs; HUD insured section 221d3, some 
section 236s, and project based section 8 rent subsidies. In addition, 
nearly 2,000 service coordinators are funded through project 
operations, and over 200 service coordinators are funded through 
project residual receipts and excess revenues. Unfortunately, many 
facilities do not have sufficient funds to absorb service coordinators 
into their operating budget; and it is very difficult to secure the 
necessary rent increase to enable staffing as a routine part of the 
operating budget.
    In addition to federally assisted housing, there are 1.3 million 
households living in public housing and almost half of all residents 
are elderly or persons with disabilities, including more than 50,000 
seniors age 83 and older. Service coordinators are needed not only to 
assist frail elderly to remain in their home, but also to provide 
assistance to many low-income families in public housing or using 
Housing Choice Vouchers to become more self-sufficient and economically 
independent through employment and homeownership. Service coordinators 
have been funded to assist public housing residents through short-term 
competitive grants with the Resident Opportunities and Self-Sufficiency 
program (ROSS), the Housing Choice Vouchers Family Self-Sufficiency 
(HCV-FSS) program; or through public housing Operating Funds. 
Unfortunately, over the past few years there have been significant cuts 
and shortfalls in Federal funds needed for the sound operation of 
public housing, including the routine staffing of service coordinators.
    Despite the critical need and cost-effectiveness of service 
coordinators in assisting frail and low-income elderly and others with 
special needs to access supportive services or the need to assist 
families to become more self-sufficient, funding for service 
coordinators remains very limited. While the administration's fiscal 
year 2009 budget provides a slight increase for service coordinators in 
section 202 and other federally assisted senior housing, yet funding 
for service coordinators in public housing remains essentially flat. 
AASC would urge the subcommittee's support for the following:
  --$100 million in fiscal year 2009 for service coordinators in 
        federally assisted housing, particularly to ensure adequate 
        funds for expiring contracts of existing service coordinators;
  --Full funding for section 8, Project Rental Assistance Contracts 
        (PRAC), other rent subsidies and project operating funds to 
        permit the staffing of a service coordinator as a routine part 
        of the project's operating budget;
  --A separate add-on of $75 million in Public Housing Operating Funds 
        for service coordinators;
  --$55 million for the Resident Opportunities for Self-Sufficiency 
        (ROSS) program; and
  --$85 million for the Housing Choice Voucher Family Self-Sufficiency 
        Program.
                federally assisted housing--$100 million
    The administration's fiscal year 2009 budget requests $80 million 
for service coordinators, an increase over the $71 million budget 
requested in fiscal year 2008 and the $60 million appropriated as part 
of the consolidated fiscal year 2008 appropriations bill enacted 
December 26, 2007 (Public Law 110-161). Unfortunately, the $60 million 
appropriated for fiscal year 2008 is insufficient even to extend 
contracts of existing service coordinators; and will provide no funds 
for any additional service coordinators. In fact, it is anticipated 
that there will be no funds for service coordinators in the fiscal year 
2008 Notice for Funds Available (NOFA) when it is issued (anticipated 
by the end of April). This will be the first time since the service 
coordinator grant program was established that no funds will be 
available for additional service coordinators. In fiscal year 2007, HUD 
awarded nearly $3.5 million for 21 grants in 11 States (2,064 units); 
$12 million was provided in fiscal year 2006; and $30 million in fiscal 
year 2002.
    The shortfall of fiscal year 2008 appropriations for the staffing 
of service coordinators in federally assisted senior housing has 
contributed to several months delays in HUD allocation of fiscal year 
2008 funds to extend existing contracts for service coordinators. In 
order to extend all contracts, it is anticipated that HUD will make 
proportional cuts to all existing contracts. This action may seem 
equitable in sharing the shortfall; however, it may also have an 
unintended consequence of reducing needed assistance to many low-
income, frail and vulnerable elderly and others with special needs and 
jeopardize their well-being as a result of anticipated reduced hours 
and capacity of existing service coordinator programs. While HUD may 
allow service coordinators to be funded through project reserves or to 
be incorporated into project operations; most federally assisted and 
public housing facilities do not have sufficient resources in their 
operating budgets to staff service coordinators. Given the shortages 
for section 8, HAPs, PRACs and other operating funds and critical 
competing needs, it is unlikely that projects will be able to secure 
necessary rent increases to allow the staffing of service coordinators.
    AASC would recommend several actions: first, there is a need for 
$20 million in fiscal year 2008 supplemental funds in order to extend 
contracts at full funding for existing service coordinators to ensure 
there are no cuts in hours, elimination of service coordinator 
positions, or cuts in quality assurance and other aspects of the 
service coordinator program; second, to provide $100 million in fiscal 
year 2009 for service coordinators in federally assisted housing to 
ensure full funding with the renewal of existing contracts, as well as 
to expand service coordinators in federally assisted housing for 
elderly or persons with disabilities that currently do not have them 
(two-thirds of eligible facilities do not have service coordinators); 
and to expand eligibility for service coordinators to section 515 rural 
housing and for Low-Income Housing Tax Credits (LIHTC) projects that 
involve non-profit organizations.
    There is also a need for a dual strategy for funding service 
coordinators that includes maintaining the service coordinator grant 
program, and also increasing the routine staffing of service 
coordinators within the facility's operating budget. While statutory 
authority exists to allow HUD to fund coordinators, many senior housing 
facilities have not been able to secure the necessary rent adjustments 
to accommodate them. AASC would recommend that sufficient section 8, 
PRAC, or other operating funds be increased to allow routine staffing 
of service coordinators, as well as to direct HUD and their field 
offices to provide necessary budget adjustments and regulatory relief 
to remove any barriers restricting the staffing of service coordinators 
through the project's operating budget. There is also a need to expand 
the funding for housing-based service coordinator to assist frail 
elderly in the facilities' surrounding community. While there is 
existing statutory authority to enable service coordinators to assist 
residents in the surrounding community, there are insufficient funds to 
enable service coordinators to reach out to assist these surrounding 
residents.
      public housing: complexity and inadequate funds for service 
                              coordinators
    Elderly and other residents with special needs living in public 
housing and those using Housing Choice Vouchers (HCV) have been denied 
full access to the valuable and cost-effective assistance provided by 
service coordinators. Over one-third of residents in public housing are 
elderly residing in various settings such as senior housing, family 
housing, and mixed-population housing with younger persons with 
physical and mental disabilities. Unfortunately, funding for service 
coordinators in public housing is very limited, complex, and has 
experienced a steady reduction in funds over the past few years, both 
with specific grant programs for service coordinators, as well as with 
the public housing operating budget.
    A number of local housing authorities have funded service 
coordinators through competitive short-term grant programs, such as 
those under the Resident Opportunities and Self-Sufficiency (ROSS) or 
Family Self-Sufficiency (FSS) programs. Unfortunately, over the past 
few years, there have been funding cuts and a lack of program 
consistency contributing to disincentives for PHAs to participate in 
these grant programs. For example, the Elderly and Persons with 
Disabilities Service Coordinator program (EDSC) funded at over $15 
million as part of the ROSS program was shifted to the Public Housing 
Operating Fund, but with no additional funds. Therefore, coordinators 
that once were funded through the EDSC program now need to compete with 
other funding priorities and are subjected to the same proportional 
cuts with Public Housing Operating Funds. Because of funding cuts in 
their operating budgets and other competing needs, a number of public 
housing authorities have been forced to lay-off or reduce their service 
coordinator program. Service Coordinators have also been essential in 
facilities that have a mix of older residents and non-elderly persons 
with disabilities. Therefore, it is necessary to ensure that there are 
adequate funds available in the fiscal year 2009 Public Housing 
Operating funds to accommodate service coordinators. AASC recommends 
that $85 million be provided as a separate add-on to Public Housing 
Operating Funds to ensure that PHAs can include service coordinators as 
a routine part of their operating budget.
    resident opportunities and self sufficiency (ross)--$55 million
    The Resident Opportunities and Self Sufficiency (ROSS) program 
provides grants to public housing agencies, tribal housing entities, 
resident associations, and nonprofit organizations for the delivery and 
coordination of supportive services and other activities designed to 
help public and Indian housing residents attain economic and housing 
self-sufficiency. There are several separate programs within the ROSS 
program that were appropriated at $40 million in fiscal year 2008, 
including: (1) Family and Homeownership ($33.4 million funded in fiscal 
year 2007), (2) Elderly and Persons with Disabilities ($16.6 million 
funded in fiscal year 2007; and (3) Public Housing Family Self-
Sufficiency ($12 million in fiscal year 2007 NOFA). Despite the 
demonstrated need and effective results, the administration's fiscal 
year 2009 budget seeks $37.6 million for these three ROSS programs, and 
no additional funds for Neighborhood Networks (funded earlier at $15 
million), a slight reduction from the $40 million appropriated in 
fiscal year 2008. AASC recommends that ROSS be funded at $55 million, 
as it had been prior to fiscal year 2005.
 housing choice voucher/family self-sufficiency (hcv/fss)--$85 million
    The HCV/FSS program allows participants in the section 8 Housing 
Choice Voucher program to increase their earned income, reduce or 
eliminate their need for welfare assistance, and promote their economic 
independence. Funds are used to provide for FSS program coordinators to 
link participants with supportive services they need to achieve self-
sufficiency and to develop 5-year self-sufficiency plans. The HCV/FSS 
program currently assists over 63,000 families and 8,300 families in 
public housing. In fiscal year 2004, HUD made a number of changes in 
the program that led to a number of technical errors and elimination of 
nearly one-third of the existing grants. The administration's fiscal 
year 2009 budget requests $48 million for HCV/FSS, slightly less than 
the $49 million appropriated in fiscal year 2008 and essentially the 
same since fiscal year 2005. AASC recommends $85 million for HCV/FSS 
funding in order to restore funds to PHAs that were cut in fiscal year 
2004 and to expand the number of FSS participants. In addition, we 
support administrative changes for up-front funding of HCV/FSS escrow 
accounts, and to streamline the staffing of service coordinators.
                               conclusion
    While we understand the difficult funding choices that the 
subcommittee needs to make with limited resources, we would urge your 
support for the funding of service coordinators as a cost-effective 
means to assist the low-income elderly and other residents with special 
needs and as a means to save public funds by promoting economic self-
sufficiency for low-income families and options for frail elderly to 
delay or avoid premature admission into costly nursing homes.
                                 ______
                                 
                   Prepared Statement of Easter Seals
    Chairman Murray, Ranking Member Bond and members of the 
subcommittee, Easter Seals appreciates this opportunity to share the 
successes of Easter Seals Project ACTION and the National Center on 
Senior Transportation.
                        project action overview
    Project ACTION was initiated during the appropriations process in 
1988 by funding provided to the Federal Transit Administration to 
undertake this effort with Easter Seals. We are indeed grateful for 
that initiative and the ongoing strong support of this subcommittee in 
subsequent years.
    Following its initial round of appropriations, Congress authorized 
assistance to Project ACTION in 1990 with the passage of ISTEA and 
reauthorized the project in 1997 as part of TEA-21 and in 2005 as part 
of SAFETEA-LU. The strong interest and support of all members of 
Congress has been greatly appreciated by Easter Seals as it has pursued 
Project ACTION's goals and objectives.
    Since the project's inception, Easter Seals has administered the 
project through a cooperative agreement with the Federal Transit 
Administration. Through steadfast appropriations support, Easter Seals 
Project ACTION has become the Nation's leading resource on accessible 
public transportation for people with disabilities. The current project 
authorization level is $3 million, and Easter Seals is pleased to 
request the appropriation of that sum for fiscal year 2009.
    The strength of Easter Seals Project ACTION is its continued 
effectiveness in meeting the congressional mandate to work with both 
the transit and disability communities to create solutions that improve 
access to transportation for people with disabilities of all ages and 
to assist transit providers in complying with transportation provisions 
in the Americans with Disabilities Act (ADA).
           national center on senior transportation overview
    The National Center on Senior Transportation (NCST) was created in 
SAFETEA-LU to increase the capacity and use of person-centered 
transportation options that support community living for seniors in the 
communities they choose throughout the United States. The center is 
designed to meet the unique mobility needs of older adults and provide 
technical assistance and support to older adults and transit providers. 
The NCST is administered by Easter Seals in partnership with the 
National Association of Area Agencies on Aging (N4A) and involves 
several other partners including the National Association of State 
Units on Aging, The Community Transportation Association of America, 
The American Society on Aging, and The Beverly Foundation. The 
Cooperative agreement forming the NCST was developed in August 2006 and 
the Center was officially launched in January 2007.
    The goals of the NCST are:
  --Greater cooperation between the aging community and transportation 
        industry to increase the availability of more comprehensive, 
        accessible, safe and coordinated transportation services;
  --Increased integration of provisions for transportation in community 
        living arrangements and long-term care for older adults;
  --Enhanced capacity of public and private transportation providers to 
        meet the mobility needs of seniors through available, 
        accessible, safe and affordable transportation;
  --Enhanced capacity of human service providers to help seniors and/or 
        caregivers individually plan, create and use appropriate 
        transportation alternatives;
  --Increased knowledge about and independent use of community 
        transportation alternatives by seniors through outreach, 
        education and advocacy;
  --Increased opportunities for older adults to obtain education and 
        support services to enable the individuals to participate in 
        local and State public and private transportation planning 
        processes.
    The tools and resources being developed to achieve these goals 
include:
  --Technical assistance extended through cross-agency and public/
        private collaboration to improve and increase mobility 
        management for older adults through new or existing local and 
        State coalitions;
  --Technical assistance and other supportive services extended to 
        communities, seniors, transportation and professional agencies 
        and organizations, government, and individuals so they can 
        effectively address barriers and/or respond to opportunities 
        related to senior transportation;
  --Creation and dissemination of products and training programs (e.g., 
        brochures, workbooks, best-practice guides and self-
        assessments) to help transportation providers, human service 
        agencies and older adults and their caregivers understand their 
        roles and/or opportunities for increasing senior mobility 
        options;
  --Use of an 800-telephone line, website, visual exhibit, newsletters 
        and other communication tools;
  --Implementation of communication strategies to increase the profile 
        of senior transportation on topics such as emerging best 
        practices, advances in public policy, success stories and more;
  --Facilitation and testing of new ideas to increase and improve 
        community mobility for seniors through the administration and 
        management of demonstration projects.
    In SAFETEA-LU, the NCST is authorized at $2 million for the first 
year of the project and $1 million for years after that. Easter Seals 
respectfully requests an appropriation of $3 million for the NCST in 
fiscal 2009. The additional $2 million included above the authorized 
level in this request would allow the center to fund local community's 
efforts to demonstrate creative, unduplicated and effective solutions 
to increasing mobility for older adults. This funding will allow us to 
support local communities' efforts to put the tools and resources 
developed by the NCST into practice.
  highlighted activities of project action and the national center on 
               senior transportation during the last year
    Both Project ACTION and the NCST are working at the State, local 
and national level to achieve the goal of greater mobility for all 
Americans. The past year has been an exciting one and the role of 
Project ACTION and the NCST as productive, highly trustworthy, 
innovative resources to the Federal Transit Administration has 
continued to grow.
    In late 2007, the NCST released an RFP to local communities to 
undertake demonstration projects that will work creatively to meet the 
transportation needs of older adults living in the community. More than 
300 public, private and faith-based aging/human services and 
transportation organizations from 46 states plus the District of 
Columbia applied. Eight community organizations have been selected to 
receive grants from the National Center on Senior Transportation. The 
grants range from $35,000 to $90,000. The sites will also receive 24 
months of tailored technical assistance. A panel of external reviewers 
selected these organizations: Human Services Council, Vancouver, WA; 
Jewish Family and Children's Services of Minneapolis, Minnetonka, MN; 
Knoxville-Knox County Community Action Committee, Knoxville, TN; 
Leslie, Knott, Letcher Perry Community Action Council, Inc., Jeff, KY; 
Meadowlink Commuter Services, Rutherford, NJ; Mid County Senior 
Services, Newtown Square, PA; Southwest Michigan Planning Commission, 
Benton Harbor, MI; ACCESS Transportation System, Pittsburg, PA.
    A highly promising new tool that both Project ACTION and the NCST 
are accessing to achieve their missions is distance learning. Distance 
learning has proven to be a highly effective method to reach an 
exponentially greater number of stakeholders to educate and inform them 
about activities that will increase the mobility of older adults and 
people with disabilities. For instance, over 800 people have 
participated in technical training offered by Project ACTION and the 
NCST with approximately 120 people signing up for each event on 
average. This has allowed approximately 5 times as many people to be 
trained by project staff. The experience has been so positive that the 
FTA has requested that the project triple their distance learning 
activities over the next 3 years contingent on funding. An additional 
training success was the presentation of the Project ACTION ``People on 
the Move'' program in New Orleans, LA to help assure that 
transportation options for people with disabilities were part of the 
rebuilding efforts in that city. Project ACTION was also proud to 
introduce a new course this year to increase the skills, knowledge and 
abilities of travel training professionals. Within 3 months following 
each of these three trainings being offered this year, participants 
will submit a report detailing how they used the curriculum materials 
to train people with disabilities to use public transportation, improve 
policies and practices, educate colleagues and increase their own 
knowledge.
    Both projects have also instituted an on-line technical assistance 
tracking process that will help identify geographic and issue area 
trends in our technical assistance efforts so that broader training and 
technical assistance tools can be targeted at specific needs.
    There are currently three ongoing studies that will result in new 
tools being added to the resource clearinghouse for both projects. The 
first is in the area of accessible taxi service and is critical to 
meeting the needs of both older adults and people with disabilities, 
particularly in rural areas. The other two are in the areas of bus stop 
accessibility and accessible pathways. In addition Project ACTION just 
released a report on wheelchair mobility that addresses the growing 
need to address larger wheelchairs in vehicles.
                          fiscal 2009 request
    In order to continue the outstanding work of Easter Seals Project 
ACTION and the NCST, Easter Seals respectfully requests that $3 million 
be allocated for Project ACTION and $3 million be allocated for the 
National Center on Senior Transportation in fiscal 2009 to the 
Department of Transportation for project activities.
    Mr. Chairman, thank you for the opportunity to present this 
testimony to the subcommittee. Your efforts have improved the 
accessibility of transportation for persons with disabilities and older 
adults and the ability of the transportation community to provide good 
service to all Americans. Easter Seals looks forward to continuing to 
work with you toward the pursuit of these objectives.
                                 ______
                                 
 Prepared Statement of the National Association of Railroad Passengers
    The National Association of Railroad Passengers strongly supports 
$1.785 billion as a minimum appropriation for Amtrak for fiscal year 
2009 in the absence of a responsible request by the Bush 
administration. There are two caveats below regarding rolling stock and 
infrastructure (sections II and IV) which justify additional funding.
    Looking forward, we strongly urge the next Congress and 
administration to take seriously the $9 billion a year recommendation 
of intercity passenger train investments contained in the report of the 
National Surface Transportation Policy and Revenue Study Commission.
                        strong ridership growth
    Americans are turning to trains. Demand for all types of services 
is growing rapidly--long distance, corridor, commuter rail and local 
transit. At Amtrak, ridership for the first 6 months of fiscal year 
2008 (October-March) was up 12 percent compared with the same period of 
fiscal year 2007. And ridership for all of fiscal year 2007, which 
Amtrak said marked ``the fifth straight year of gains,'' was 6.3 
percent higher than in fiscal year 2006.
    Sold-out trains on Amtrak means we don't have enough capacity to 
meet current demand, and certainly not the larger demand that is likely 
in the future as more people seek alternatives to high and rising 
gasoline prices and airline fares. As explained below, from a public 
policy standpoint, the increased popularity of energy-efficient trains 
is good.
                     how to keep ridership growing
    Amtrak has about 100 cars that need repairs before they can be 
returned to service. The fiscal year 2008 budget apparently would 
accomplish very little in this regard. Similarly, it appears that 
little could be accomplished within what Amtrak has requested for 
fiscal year 2009, since they are showing a significant drop in capital 
spending on both ``passenger cars'' and ``locomotives.'' Passenger cars 
would drop $40.1 million or 22.5 percent, from $178.0 million this year 
to $137.9 million next year.
    This issue also is complicated by the fact that, as a result of 
leaseback deals in the pre-Gunn years, Amtrak does not own many of 
``its'' cars and the law, as we understand it, prohibits Amtrak's use 
of capital dollars to repair such cars.
    With passenger demand already exceeding what Amtrak can supply 
today, we urge the subcommittee to sort through the above and take the 
necessary steps to maximize the number of cars Amtrak can operate, 
including--if needed for this purpose--adding additional funding.
    New Equipment.--We appreciate that Amtrak is working on developing 
a program to secure new equipment in cooperation with the States, and 
is working with them to standardize equipment design as much as 
possible. However, we are concerned at the lack of action with regard 
to equipment for the national network (long-distance) trains, where 
demand also is strong and growing, and cars also are aging. It is 
essential that the Federal funds become available to move both of these 
programs forward; with States partnering on ``State corridors'' 
equipment.
                          state grant program
    The Association appreciates the fact that, for the first time, 
Federal funds are available to match State investments for intercity 
passenger trains, and not just as a by-product of commuter rail or 
intermodal terminal programs. The $30 million approved for fiscal 2008 
is significant as a start; we urge the subcommittee to expand this 
program as rapidly as possible--and not at the expense of Amtrak 
funding--ideally at $100 million in fiscal year 2009, and including a 5 
percent set-aside for education and outreach.
                          service reliability
    While some on-time performance issues result from problems with 
railroad operating practices, substantial delays also are caused by 
genuine track capacity issues. One of the biggest problems involves the 
Norfolk Southern mainline between Porter, Indiana, 26 miles east of the 
Illinois State line, and Chicago. This segment handles Amtrak's five 
daily Michigan round-trips as well as Amtrak's four Chicago-Cleveland 
trains (Lake Shore Limited serving New York State, New York City and 
Boston; Capitol Limited serving Pittsburgh and Washington).
    Paralleling this mainline is the abandoned former New York Central 
right-of-way (and associated drawbridges, still in place). Putting this 
back into service would improve both passenger and freight operations. 
This is one major example of the sorts of projects that could blossom 
under an adequately funded Federal program to jointly fund railroad 
projects with States.
              it is sound public policy to support trains
    Fuel efficiency offers the most immediate and biggest potential for 
reducing CO<INF>2</INF> emissions from transportation over the next 3 
decades, partly because we are so far from developing radically 
advanced, low-carbon technologies to replace oil-based transportation 
energy. The emissions reduction policy measure that will have the most 
immediate impact is the one that will make greater use of the most 
fuel/carbon efficient forms of transportation.
    It is in that context that we present the most recent data from the 
annual Transportation Energy Data Book (Edition 26, released in 2007), 
published by Oak Ridge National Laboratory, under contract to the U.S. 
Department of Energy. The following table shows 2005 data; the five 
modes shown are listed from most to least energy efficient:

------------------------------------------------------------------------
                                                          BTUs per psgr-
                          Mode                               mile \1
\\------------------------------------------------------------------------
Amtrak..................................................           2,709
Commuter trains.........................................           2,743
Certificated air carriers...............................           3,254
Cars....................................................           3,445
Light trucks (2-axle, 4-tire)...........................           7,652
------------------------------------------------------------------------
\1\ BTU = British Thermal Unit; passenger-mile = one passenger traveling
  one mile.

    The aviation figure shown above is straight energy consumption; no 
multiplier is added although there is evidence that ``radiative 
forcing'' increases the negative environmental impacts of high altitude 
emissions.
                          hudson river tunnels
    One other geographically specific project demands comment: the 
current plan of New Jersey Transit to build two tunnels under the 
Hudson River which would not connect with existing New York Penn 
Station and which would lead to a dead-end, deep cavern station so far 
under 34th Street as to render questionable the ability to extend 
tracks to Grand Central. Moreover, we understand that the tunnels are 
designed in a way that prohibits additional intercity capacity in the 
future.
    We cannot support or justify a $7.6 billion expenditure on new 
tunnels that, in 2017, will find existing Penn Station and all 
intercity service under the Hudson just as dependent as today on two 
century-old tunnels. Moreover, these new tunnels will block future 
investments to expand intercity capacity, violating a basic rule: do no 
harm. As we have testified to New Jersey Transit and written to the 
Governors of New York and New Jersey, it is inconceivable that the 
continent's strongest market opportunity for rail to ameliorate 
aviation congestion could remain one incident away from rail paralysis. 
Even without an incident that closes those tunnels for any length of 
time, basic track maintenance needs are increasingly in conflict with 
growing demand for both commuter and intercity weekend services.
                                back pay
    Our $1.785 billion request includes both the $1.671 billion that 
Amtrak formally requested and the additional $114 million to fulfill 
the new contracts.
    The alternative approach of relying on an end-of-year cash balance 
to cover the $114 million would be unwise because the remaining cash on 
hand would be inadequate for responsible management of a $3+ billion 
corporation like Amtrak. While it is unfortunate that Amtrak did not 
forthrightly request the $114 million, we agree that the board arguably 
would be failing in its fiduciary responsibility to recommend 
``swallowing'' the $114 million. As Alex Kummant testified before your 
subcommittee on April 3, ``it's early to project end-of-year cash. Last 
year, we came within 3 weeks of running out of cash by the time we got 
our first grant in February.''
                               work rules
    We have supported reasonable efforts to improve productivity, 
believing that such efforts will facilitate service expansion that 
provides services travelers need while increasing the number of good 
jobs on and related to passenger trains. It is widely known that the 
PEB ``does not recommend any of Amtrak's requested changes.'' However, 
rail labor submissions to the PEB noted that Amtrak can increase 
productivity within the scope of existing contracts. Also, the new 
contracts become amendable in just over 19 months which leaves room for 
hope that all parties, informed by the recent process, can approach the 
issue more effectively.
                                 ______
                                 
        Prepared Statement of the Railway Supply Institute, Inc.
    Dear Mr. Chairman, the Railway Supply Institute (RSI) appreciates 
the opportunity to provide this subcommittee with our views on 
important transportation funding policy.
    Established in 1908, RSI is the international association of 
suppliers to the Nation's freight, passenger rail systems, and rail 
transit authorities. The domestic railway supply industry is a $20 
billion a year business with some 500 companies employing 150,000 
people. Approximately 25 percent of sales involve Amtrak, commuter 
railroads and transit authorities. A strong national freight and 
passenger rail system will not only continue to sustain good paying 
domestic jobs but will lead to future job creation as well.
    RSI supports both our Nation's freight and passenger rail 
operations. Today we will focus on passenger rail service. 
Unfortunately, in our view, our transportation policy places entirely 
too much emphasis on those modes of transportation that have the 
inverse effect on the issues mentioned above.
    We need a strong, national railroad passenger system that 
contributes to reducing dependence on foreign oil; reducing carbon 
emissions into the atmosphere; reducing congestion on our highways; 
improving transportation safety; reducing airport congestion; and that 
will enhance our ability to move vast numbers of people in emergency 
evacuation situations (i.e. 9/11, Katrina, etc).
    As representatives of those who supply our Nation's railroad 
industry, we submit that a more balanced national transportation policy 
that places more emphasis on rail will significantly contribute to 
meeting our Nation's stated policy objectives that are designed to make 
this Nation stronger.
    That is why we urge this subcommittee to reject the 
administration's proposed cuts in rail passenger service and support 
Amtrak's fiscal year 2009 appropriation request of $1.671 billion. 
However, if policy makers are truly serious about achieving the above 
stated objectives, then we need to do much more than just allowing 
Amtrak to survive on a year to year basis. And, certainly get away from 
the annual starvation budget for rail passenger service.
    Last August, the Wall Street Journal wrote that just the increase 
in ridership alone on the Acela's on Amtrak's Northeast Corridor was 
``enough new passengers to fill 2,000 Boeing 757 jets''. Just imagine 
running more corridor operations that would do more of that and the 
impact that could have on fuel consumption and carbon emissions. Amtrak 
needs more equipment and investment in railroad infrastructure so it 
can expand capacity allowing it to move more people by rail. By doing 
that, it will help reduce short distance flights and auto trips.
    At a time when we are considering capping air traffic in some of 
our busiest airports, wouldn't it make more sense to have a Federal 
policy that encourages the development of rail corridors that will 
reduce the need for short distance air travel and free up valuable air 
slots at airports? Such a policy would not only reduce airport 
congestion but would aide in reducing fuel consumption.
    In addition:
  --Air transportation produces significant levels of CO<INF>2</INF>. 
        Air emissions effects are greater at high altitudes.
  --Airliner fuel use triples during the takeoff climb, and sometimes 
        in descent, making short distance trips inefficient and adding 
        unnecessarily to airport congestion.
  --Rail travel could efficiently replace short distance air travel and 
        longer distance highway trips, while reducing greenhouse gas 
        emissions if we had a policy that encouraged more rail 
        passenger corridor development.
    Former airline executives, (Gordon Bethune-Continental/Robert 
Crandall-American) have publicly stated that the United States should 
do what governments in Europe and Asia have long done--building high 
speed rail lines for short distance travelers and freeing up runway 
space for long distance flights. States all over this country are 
interested in adopting policies that reward and encourage energy 
efficient, low-emissions transportation modes like passenger rail and 
corridor development. The Federal Government needs to be a partner with 
those States.
    Mr. Chairman, we are here to urge you and the members of this 
subcommittee to focus your attention on the benefits of rail passenger 
service and, perhaps, even follow some of the recommendations of the 
National Surface Transportation Commission which clearly states that 
``intercity passenger rail is . . . more energy efficient than many 
other modes of passenger transportation.'' That same report goes on to 
say that the average intercity passenger rail train produces 60 percent 
lower carbon dioxide emission per passenger mile than the average auto, 
and half the carbon dioxide emission per passenger mile of an airplane.
    These facts suggest that Federal transportation policy should do 
more to develop those modes of transportation that we already know are 
efficient. Perhaps our policy should measure the value of rail 
passenger service in a way that will reflect its overall value and 
enhance other policy objectives rather than only measuring the pure 
cost of the service as we do today.
    Instead of measuring the ``loss-per-passenger-mile'' on Amtrak 
trains maybe this subcommittee should entertain other measures like 
``carbon emission reduction per-passenger-mile'' or ``reduction in 
VMT'' (vehicle miles traveled).
    Why not require a Fuel Efficient/Carbon Emission Impact Statement 
similar to the Environmental Impact Statement that will give 
transportation policy makers a different measurement tool that will 
actually help to gage the progress (or lack of it) in reducing fuel 
consumption and carbon emissions.
    Above all, we would urge the subcommittee and Congress to provide 
full funding for Amtrak and to resist micro-managing their activities. 
If Congress wants Amtrak to operate more like a business, it should 
treat it like a business and have an arms-length relationship allowing 
the Board of Directors to be responsible for setting management 
objectives.
    Clearly there are things Amtrak can do to be more efficient but 
dictating operational reforms for specific on-board services or a 
marketing strategy should be left to the Board of Directors and its 
management oversight and not spelled out in statutory language. Allow 
the Amtrak Board to be responsible and accountable for the actions of 
the corporation. The whole purpose for having a Board of Directors is 
to provide management with a general direction and hold management to 
the policies it sets.
    Once Congress begins to dictate policies to management, it becomes 
part of the problem. We believe that the appropriate role of Congress 
should be to make policy, provide funding, and engage in oversight. The 
Appropriations Committees have a responsibility to work in the best 
interests of the Nation, making funding decisions that can set the 
foundation for a strong economy and a brighter future for all 
Americans. Support for rail passenger service is part of the solution 
for many of our Nation's concerns over congestion and pollution.
    We applaud the subcommittee for its wisdom in providing the initial 
funding for the Intercity Passenger Rail Grant Program last year. In 
addition, Federal Railroad Administrator Joseph Boardman deserves 
credit for proposing this concept and for recommending an additional 
$100 million to expand the current program to assist the States in 
being more aggressive in improving intercity rail passenger service. 
This is one of those areas where Amtrak, the States, Congress and the 
administration can all agree needs to move forward and we hope this 
subcommittee will do its best to fully fund this proposal.
    Your continued support for rail passenger service is good public 
policy and good for the Nation.
    Thank you for the opportunity to present our views.
                                 ______
                                 
                 Prepared Statement of Foothill Transit
    Mr. Chairman and members of the subcommittee, my name is Doran 
Barnes and I serve as the Executive Director of Foothill Transit in 
West Covina, California. Thank you very much for the opportunity to 
submit testimony to this subcommittee.
    Mr. Chairman, I recognize the difficult tasks before this 
subcommittee and commend your leadership in determining the allocation 
of available transportation resources during this congressional budget 
period. We are very appreciative of the strong support provided to 
Foothill Transit by this subcommittee over the past 13 years. The 
support of this subcommittee has enabled Foothill Transit to construct 
two operating and maintenance facilities and to initiate replacement of 
our aging bus fleet with new compressed natural gas coaches, as well as 
to embark upon providing commuter parking to encourage transit 
ridership. These initiatives have greatly enhanced our service to our 
riders, and continue to do so.
                     why this bus capital request?
    Thanks to the unwavering support of our Congressional delegation, 
Foothill Transit has been extremely successful in achieving its capital 
goals. Our fiscal year 2009 funding request is for $5 million in 
Discretionary Bus Capital funding to assist Foothill Transit in our 
aggressive efforts to continue the conversion of our entire 314-bus 
fleet to cleaner burning compressed natural gas (CNG) buses. To date, 
Foothill Transit's fleet consists of 232 CNG buses and 82 diesel buses. 
The funds requested here would be utilized for the purchase of both 40-
foot buses, and additional 60-foot articulated buses to add to the new 
``Silver Streak'' service just introduced in March 2007. This 
successful new service includes 58-passenger buses which board faster, 
save riders substantial commuting time, have state-of-the-art safety 
features, and offer onboard WiFi (Internet) service.
    The conversion of transit fleets to alternative fuel sources 
multiplies the benefits that transit service already contributes to our 
national energy conservation goals. The Federal Government has 
recognized the importance of such energy-saving initiatives by 
providing Federal matching funds and incentives to assist local 
agencies, such as Foothill Transit, with the procurement of alternative 
fuel buses.
    The agency's Pomona Operations Yard is now running a 100 percent 
CNG fleet with 170 buses. Diesel fueling infrastructure has been 
dismantled at this yard as the use of diesel fuel buses has been phased 
out at this facility.
    Foothill Transit's Arcadia/Irwindale Operations Yard runs the 
remaining 144 buses, with the goal of converting to a cleaner burning 
CNG facility as soon as possible. This funding request will enable the 
retirement of a portion of the older diesel-fueled vehicles and advance 
the ``green'' goals of the agency, furthering its role in improving 
regional air quality through the cleaner fuel technologies and 
congestion reduction in Los Angeles County.
    Since its introduction in March 2007, the Silver Streak service 
mentioned above has become a great success. The service saves riders 
approximately 40 minutes of commute time from one end of the county to 
the other. Ridership has increased rapidly since its inception and has 
improved overall system access on connecting lines. This funding, if 
approved, will enable the purchase of an additional 10 60-foot CNG 
``articulated'' buses, as well as additional 40-foot CNG buses.
                         about foothill transit
    Foothill Transit was created in 1987 as an experiment to determine 
the effectiveness of competitively bidding for transit service 
operations. A public/private partnership, Foothill Transit is governed 
by an elected board comprised of mayors and council members 
representing the 21 cities and 3 appointees from the County of Los 
Angeles who are members of a Joint Exercise of Powers Authority. The 
agency provides public transit service over a 327-square-mile service 
area. Foothill Transit is one of the best investments of taxpayer 
dollars in these times of limited funds.
    Foothill Transit has established a reputation of providing 
outstanding customer service. In five separate customer surveys, 
Foothill Transit drivers have consistently received ratings above 
average or greater by more than 805 of our customers. Customers also 
rate Foothill Transit buses very highly on their cleanliness, comfort 
and graffiti-free appearance.
    Foothill Transit was initially established as a 3-year experiment 
to operate 14 bus lines at least 25 percent more effectively than the 
former Southern California Rapid Transit District (now Metro), with 
those savings to be passed on to the community through increased 
service and/or lower fares. A 3-year evaluation completed by Ernst & 
Young in 1995 showed that Foothill Transit's public/private structure 
resulted in cost savings of 43 percent per revenue hour over the 
previous provider.
    Recognized by Congress in 1996 as a ``national model,'' the 
combination of public accountability and private sector efficiencies 
has allowed Foothill Transit to hold costs constant since its inception 
in 1987, while increasing ridership by 77 percent and more than 
doubling the amount of service on the street.
    Foothill Transit has no employees. All management and operation of 
Foothill Transit service is provided through competitive procurement 
practices. The Foothill Executive Board has retained my employer, 
Veolia Transportation, to provide the day-to-day management and 
administration of the agency. The management contractor oversees the 
maintenance and operation contractors to ensure adherence to Foothill 
Transit's strict quality standards. We currently have two operating 
contracts, with First Transit at our Pomona facility, and MV 
Transportation at our Arcadia/Irwindale facility.
    Mr. Chairman, thank you for the opportunity to provide testimony 
and for your consideration of this request. Please feel free to contact 
me with any questions you may have or if I can be of any assistance.
                                 ______
                                 
    Prepared Statement of the Illinois Department of Transportation
    Madam Chairwoman and members of the subcommittee, we appreciate the 
opportunity to submit testimony concerning the fiscal year 2009 U.S. 
Department of Transportation (U.S. DOT) appropriations on behalf of the 
Illinois Department of Transportation (IDOT) to the Senate 
Appropriations Subcommittee on Transportation and Housing and Urban 
Development, and Related Agencies. We thank Chairwoman Patty Murray and 
the members of the subcommittee for their past support of a strong 
Federal transportation program and for taking into consideration 
Illinois' unique needs.
    IDOT is responsible for the planning, construction, maintenance and 
coordination of highways, public transit, aviation, intercity passenger 
rail and freight rail systems in the State of Illinois. IDOT also 
administers traffic safety programs. Our recommendations for overall 
funding priorities and our requests for transportation funding for 
projects of special interest to Illinois are discussed below.
                                highway
Highway Obligation Limitation
    IDOT urges the subcommittee to set the obligation limitation for 
highway and highway safety programs at no less than the guaranteed 
SAFETEA-LU level of $41.2 billion for fiscal year 2009--the same 
funding level approved in fiscal year 2008. As you are aware, these 
guarantees/funding levels were also approved in both the House and 
Senate fiscal year 2009 budget resolutions. Moreover, IDOT continues to 
support the SAFETEA-LU guarantees and funding firewalls as do other 
transportation advocates such as the American Association of State 
Highway and Transportation Officials (AASHTO) and the American Road and 
Transportation Builders Association (ARTBA).
    IDOT is aware of the implications of supporting increased 
transportation funding when the long-term viability of the trust fund 
is in question. However, IDOT is responsible for securing the Federal 
funding that is needed to address the immediate highway and bridge 
deficiencies in Illinois and to preserve Illinois' transportation 
system for succeeding generations. To paraphrase the recent findings of 
the National Surface Transportation Policy and Revenue Study 
Commission, the consequences of inaction, at any level, will lead to 
further deterioration of the Nation's transportation system assets.
Rescission of Unobligated Highway Apportionments
    IDOT urges the subcommittee to suspend its practice of rescinding 
unobligated highway apportionments. Since fiscal year 2002, Congress 
has enacted language requiring Illinois to rescind a total of $466 
million in unobligated apportionments. Rescissions undermine the 
SAFETEA-LU principles of guaranteed funding and budgetary firewalls by 
withdrawing promised Federal funding to offset increased non-
transportation funding in other areas of the budget. The accumulated 
impact of numerous rescissions since fiscal year 2002 has exacted 
burdensome programmatic consequences. With large-scale rescissions, 
such as the one implemented in fiscal year 2008 for $3.15 billion, 
States have less flexibility to shift funding toward unique State needs 
and to meet individual highway program priorities. Moreover, State 
transportation departments are being pressured by various 
transportation interests to make rescissions based on that group's 
particular preference.
    Lastly, the members of the Senate Appropriations Committee should 
be reminded that the $8.6 billion rescission enacted in SAFETEA-LU, 
which becomes effective on the last day of the bill, represents a 22 
percent reduction of the estimated $38.3 billion to be apportioned to 
the States in fiscal year 2009. Illinois' share of the fiscal year 2009 
rescission is estimated in the range of $285 million to $300 million.
Funding Requests for Meritorious Projects
    If the subcommittee finds the flexibility to fund meritorious 
projects in existing discretionary SAFETEA-LU categories or outside the 
authorized categories, IDOT requests funding for the following projects 
(noted throughout the testimony) for highway, Intelligent 
Transportation Systems (ITS), transit and rail funding:
  --Rehabilitation of Congress Parkway Bridge.--IDOT requests $20 
        million for rehabilitation and construction of the bridge, 
        which crosses the South Branch of the Chicago River, and is 
        currently classified as structurally deficient.
  --New Mississippi River Bridge.--IDOT requests $9.6 million for the 
        land acquisition required for the construction of a new eight-
        lane Mississippi River Bridge in the St. Louis, Missouri and 
        East St. Louis, Illinois area.
  --Remote Control Bridge Monitoring for Des Plaines River.--IDOT 
        requests $6 million to provide automated remote monitoring and 
        control for a group of six movable bridges crossing the Des 
        Plaines River in the Joliet region.
    Other IDOT Highway Priorities Include.--$20.5 million for expansion 
of US 51 between Decatur and Centralia; $62.5 million for expansion of 
US 67 between Macomb and Alton; $10 million for I-39/I-90 Interchange 
Reconstruction in Rockford; and $12.6 million for development of an 
east-west IL Route 120 Corridor.
    Other IDOT ITS Priorities Include.--$6 million for a traffic 
surveillance system for I-80; $2 million for dynamic message signs at 
the I-39/I-80 Interchange; $1.5 million for I-270 fiber network and 
other ITS devices; $6 million for a traffic surveillance system for I-
55; and $9 million for Vehicle Infrastructure Integration along Route 
66.
                                transit
Transit Obligation Limitation
    IDOT urges the subcommittee to set the obligation limitation for 
transit programs at the guaranteed SAFETEA-LU level in fiscal year 2009 
at $10.4 billion.
  --Bus and Bus Facilities.--IDOT and the Illinois Public 
        Transportation Association jointly request a Federal earmark of 
        $30 million ($6.1 million for downstate bus and $23.9 million 
        for downstate facilities) in fiscal year 2009 section 5309 bus 
        capital funds for downstate Illinois.
    The request will provide $6.1 million for downstate Illinois 
transit systems to purchase up to 43 buses and paratransit vehicles to 
replace overage vehicles and to comply with Federal mandates under the 
Americans with Disabilities Act. All of the vehicles scheduled for 
replacement are at or well beyond their design life. The request will 
also provide $23.9 million to Illinois to undertake engineering, land 
acquisition or construction for eight maintenance facilities and two 
transfer facilities that will enhance efficient operation of transit 
services.
    Illinois transit systems need discretionary bus capital funds. 
Regular formula funding is inadequate to meet all bus capital needs. 
IDOT believes that Illinois' needs justify a much larger amount of 
discretionary bus funds than the State has received in recent years. 
Under SAFETEA-LU, Illinois is expected to receive approximately 6.5 
percent of the needs-based formula funds but Illinois has only received 
between 1 percent and 3 percent of appropriated bus capital funds in 
the past.
New Systems and Extensions--Chicago Transit Authority (CTA)
    IDOT supports the CTA's request for an earmark totaling $30.5 
million in New Starts funding to assist in upgrading the Ravenswood 
Brown Line. The match for these funds has been provided by IDOT.
    The funding requested for upgrading the Ravenswood Brown Line would 
continue construction to extend station platforms to handle longer 
trains that are needed to serve the increasing demand along this line. 
Lengthening all platforms to handle longer, 8-car trains, straightening 
tight S-curves that slow operations and selected yard improvements will 
increase capacity by 25 to 30 percent. The CTA is seeking $30.5 million 
in New Starts funds for fiscal year 2009. A Full Funding Grant 
Agreement for $245.5 million was executed in January 2004 for the 
project.
New Systems and Extensions--MetroLink
    IDOT supports the Bi-State Development Agency's request for a 
Federal earmark of $50 million in fiscal year 2009 New Starts funding 
for extending the MetroLink light rail system in St. Clair County from 
Scott Air Force Base to MidAmerica Airport. The MetroLink system serves 
the St. Louis region in both Illinois and Missouri. MetroLink service 
has been a tremendous success and ridership has far exceeded 
projections.
Formula Grants
    IDOT urges the subcommittee to set appropriations for transit 
formula grant programs at levels that will allow full use of the 
anticipated Mass Transit Account revenues. IDOT also supports utilizing 
general funds to supplement transit needs.
    In Illinois, Urbanized Area formula funds (section 5307) are 
distributed to the Regional Transportation Authority and its three 
service boards which provide approximately 600 million passenger trips 
per year. Downstate urbanized formula funds are distributed to 14 
urbanized areas which provide approximately 30 million passenger trips 
per year.
    The Rural and Small Urban formula funds (section 5311) play a vital 
role in meeting mobility needs in Illinois' small cities and rural 
areas. IDOT urges the subcommittee to fully fund section 5311 at the 
SAFETEA-LU authorized level. With section 5311 funding increases 
already authorized in SAFETEA-LU, Illinois is in the process of 
expanding service into 24 counties not currently served.
    Any decrease in Federal funding below the SAFETEA-LU authorized 
levels could jeopardize the much needed service expansion. In Illinois, 
such systems operate in 60 counties and 11 small cities, carrying 
approximately 2.9 million passengers annually.
                                  rail
Amtrak Appropriation
    IDOT supports Amtrak's grant request of $1.671 billion in funding 
from general funds for fiscal year 2009 to cover capital, operating and 
debt service costs. In addition, IDOT supports Amtrak's supplemental 
request for $114 million to cover 60 percent of the labor settlement 
amount (40 percent was funded within fiscal year 2008) determined by 
the Presidential Emergency Board.
    Amtrak needs the full amount of their request to maintain existing 
nationwide operations. IDOT urges Congress to provide funds to continue 
current service until it develops a new national rail passenger policy 
and a clear plan for any changes to existing services as part of the 
congressional reauthorization of Amtrak. Chicago is a hub for Amtrak 
intercity service, and Amtrak operates 58 trains throughout Illinois as 
part of the Nation's passenger rail system, serving approximately 3.6 
million passengers annually. Of the total, Illinois subsidizes 28 
State-sponsored trains which provide service in four corridors from 
Chicago to Milwaukee, Quincy, St. Louis and Carbondale. Amtrak service 
in key travel corridors is an important component of Illinois' 
multimodal transportation network and continued Federal capital and 
operating support is needed.
  --CREATE Railroad Grand Crossing Connection.--IDOT requests $10 
        million in fiscal year 2009 for design and construction of a 
        railroad connection between the CN and Norfolk Southern 
        Railroads at 75th Street in Chicago--also know as the Grand 
        Crossing.
  --Passenger Rail-Freight Congestion Relief.--IDOT requests $1 million 
        in fiscal year 2009 for engineering and capital improvements to 
        relieve passenger and freight train congestion/delays on the 
        three State-supported downstate corridors.
                                aviation
Airport Improvement Program Obligation Limitation
    IDOT supports a fiscal year 2009 Airport Improvement Program (AIP) 
obligation limitation of $3.9 billion, thereby continuing the 4-year 
VISION-100 pattern of increasing the obligation limitation each year by 
$100 million. This level of funding is supported by the American 
Association of Airport Executives and the National Association of State 
Aviation Officials.
    Adequate AIP funding remains especially important for Small, Non-
Hub, Non-primary, General Aviation and Reliever airports. While most 
Large/Medium Hub airports have been able to raise substantial amounts 
of funding with Passenger Facility Charges, the smaller airports are 
very dependent on the Federal AIP program. Airports must continue to 
make infrastructure improvements to safely and efficiently serve 
existing air traffic and the rapidly growing passenger demand.
    Despite challenges that include high fuel prices and concerns about 
the economy, U.S. commercial aviation is on track to carry one billion 
passengers by 2016, as predicted by the Federal Aviation Administration 
in a recently released forecast for the period 2008-2025. In addition, 
the most recent National Plan of Integrated Airport Systems (NPIAS) 
report identified $41.2 billion in airport development needs over a 5-
year period (2007-2011), an annual average of $8.2 billion. Lower AIP 
obligation levels translate into less Federal funds for airport 
projects, thereby exacerbating the existing capital project funding 
shortfall.
    Essential Air Service Program (EAS).--IDOT supports an EAS program 
funded at a level that will enable the continuation of service at all 
current Illinois EAS points. Several Illinois airports, Decatur, 
Marion/Herrin and Quincy, currently receive annual EAS subsidies.
    Small Community Air Service Program.--IDOT supports funding for the 
Small Community Air Service Development Program in fiscal year 2009, at 
a level of no less than at the full authorized fiscal year 2008 level 
of $35 million. Illinois airports have received funding from this 
program in the past.
Other IDOT Non-Modal Priorities
    Resource Center for Disadvantaged Business/Minorities/Women.--IDOT 
requests $450,000 for an IDOT resource center for disadvantaged, 
minority and women owned businesses aimed at increasing participation 
on all IDOT projects as well as CREATE.
    Height Modernization.--IDOT requests $3.5 million to establish a 
Height Modernization (HM) program in Illinois. This will be requested 
through the Appropriations Subcommittee on Science, State, Justice, 
Commerce and Related Agencies.
    Finally, should Congress develop a second stimulus package IDOT 
would support the inclusion of an infrastructure component. IDOT has 
identified approximately 295 highway, transit, rail and aviation 
projects at a value of $2.5 billion that would be ready-to-go in a 
short timeframe to not only stimulate the economy by creating good 
paying jobs, but provide long-term improvements to our transportation 
infrastructure.
    This concludes my testimony. I understand the difficulty you face 
trying to provide needed increases in transportation funding. However, 
an adequate and well-maintained transportation system is critical to 
the Nation's economic prosperity and future growth. Your ongoing 
recognition of that fact and your support for the Nation's 
transportation needs are much appreciated. Again, thank you for the 
opportunity to discuss Illinois' Federal transportation funding 
concerns.

</pre></body></html>
